<html>
<title> - DO NO HARM: ENDING SEXUAL ABUSE IN UNITED NATIONS PEACEKEEPING</title>
<body><pre>[Senate Hearing 114-777]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-777
 
                    DO NO HARM: ENDING SEXUAL ABUSE 
                     IN UNITED NATIONS PEACEKEEPING

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                            APRIL 13, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
  
  
  
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
              U.S. GOVERNMENT PUBLISHING OFFICE
 30-299 PDF               WASHINGTON : 2018      
                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Coleman, Amb. Isobel, U.S. Representative to the United Nations 
  for U.N. Management and Reform, New York, NY...................     4

    Prepared statement...........................................     6


Jacobson, Amb. Tracey, Principal Deputy Assistant Secretary of 
  State for International Organization Affairs, Washington, DC...     8

    Prepared statement...........................................     9


Rothstein, Major General Michael, Deputy Assistant Secretary for 
  Plans, Programs, and Operations, Bureau of Political-Military 
  Affairs, U.S. Department of State, Washington, DC..............    11

    Prepared statement...........................................    14


Miranda Brown, Former Chief of Africa I Section, Office of the 
  High Commissioner for Human Rights, United Nations, Geneva, 
  Switzerland....................................................    35

    Prepared statement...........................................    37


Peter Yeo, President, Better World Campaign, and Vice President 
  for Public Policy and Advocacy, United Nations Foundation, 
  Washington, DC.................................................    43

    Prepared statement...........................................    45


              Additional Material Submitted for the Record

Responses to Questions for the Record Submitted to Ambassador 
  Coleman, Principal Deputy Assistant Secretary Jocobson, and 
  Deputy Assistant Secretary Rothstein by Senator Corker and 
  Senator Boxer..................................................    55


Responses to Questions for the Record Submitted to Peter Yeo, 
  President, Better World Campaign, and Vice President for Public 
  Policy and Advocacy, United Nations Foundation, by Senator 
  Corker.........................................................    57

                             (iii)        

  


     DO NO HARM: ENDING SEXUAL ABUSE IN UNITED NATIONS PEACEKEEPING

                              ----------                              


                       Wednesday, APRIL 13, 2016

                                        U.S. Senate
                             Committee on Foreign Relations
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:16 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Flake, Gardner, 
Isakson, Cardin, Shaheen, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I want to thank both of our panels for being here and for 
your service. As a courtesy, and I guess as protocol, the way 
these hearings go is we have government witnesses typically 
first and then we have other outside witnesses second.
    Today, not to show any disrespect in any way to those 
panelists who are going first, I wish the second panel was 
going first, so that you could hear the testimony, especially 
because of its nature.
    My staff generally prepares comments for me to make on the 
front end, and I generally, with a couple of alterations, stick 
to them. Today, I want to be very brief and just say that, 
look, we understand the importance of U.N. peacekeeping 
missions. We thank you for being here to tell us a little bit 
about some of the progress that may being made.
    But I think all of us understand the terrible, horrible 
things that U.N. peacekeepers are doing to the people they are 
supposed to be protecting. The sexual abuse, what they are 
rendering to the populations that are in this helpless 
situation, is beyond belief.
    And I think all of us, on both sides of the aisle, get very 
frustrated with the process focus that takes place at the U.N., 
but the lack of results that occur.
    And again, I understand you guys are working hard. You are 
working within an environment that I find less than satisfying 
on every level, whether it is at the Security Council and 
keeping agreements intact, or whether it is this kind of thing.
    Let me just make a statement. Based on what I know, and 
maybe I do not know everything I should, if I knew right now 
that a U.N. peacekeeping mission was going to go into North 
Chattanooga today, which is where my wife is, I would be on the 
first plane out of here to go home and protect her from the 
U.N. peacekeepers, especially if they came from certain 
countries.
    I am just telling you, so here I am as chairman of the 
Foreign Relations Committee, and if I knew that the U.N. was 
sending peacekeepers into my neighborhood, I would leave here 
immediately. I would drop what I was doing. I would catch the 
next flight home. And I would go home and try to protect my 
family from the abuse that they put forth on the very people 
that they try to protect.
    And that is in North Chattanooga. You think about it in 
some of these isolated places where people are held up in 
camps, where young girls are subjected--and young boys are 
subjected to this sexual violence by people that we are paying, 
the United States of America is paying. We are the largest 
contributor, and this is taking place.
    So look, I know you are here today to share with us some of 
the progress that is being made. This is not you doing this. I 
got it. This is not directed at you.
    But I can just tell you, I am disgusted--disgusted--by the 
reports, by the actions of U.N. peacekeepers that U.S. 
taxpayers are paying for.
    And I hope that somehow, out of this hearing and other 
hearings and other actions, that somehow we will figure out a 
way to reel this in.
    Again, if I knew it was happening, if I knew they were 
going to Chattanooga, I would leave here immediately to protect 
my family.
    So with that being said, I look forward to this hearing. I 
want to thank our ranking member for his desire and cooperation 
in having this.
    I thank you for your service to our country, but I hope, 
out of that service, we, as a Nation, will figure out some way 
of ensuring that the very people that are sent to protect 
people are not doing the dastardly, terrible things that they 
are doing to populations that are very vulnerable.
    Again, thank you, and I will turn it over to our ranking 
member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you for your 
passion on this issue.
    It is not the first time we have dealt with problems such 
as this. This committee has taken, I think, the right position 
on trafficking in persons, where the United States' leadership 
has been instrumental in changing attitude of so many places in 
the world, where young people were trafficked for sex or for 
labor abuses. And this committee came in very strong on 
oversight to make sure that the integrity of what we do in 
evaluating countries' progress on trafficking is not 
compromised by politics.
    And when you look at the United Nations, we will not 
tolerate the United Nations, under the auspices of the United 
Nations, perpetrating these types of violence against young 
people, against anyone. So I agree with you completely.
    I first want to underscore the importance of the U.N. 
peacekeeping missions--120,000 military and police personnel, 
an overwhelming number performing their professional 
responsibilities in the appropriate way with commitment and 
honor, protecting vulnerable citizens from the South Sudan to 
the Golan Heights, 16 missions around the world, four 
continents.
    Ambassador Power pointed out that the United States not 
only has a direct security interest in the U.N. peacekeeping 
missions, and we contribute, as the chairman pointed out, to 
these missions at a greater percentage than any other country 
in the world, but it is value for the United States. I think 
Ambassador Power pointed out it is like an eight-to-one savings 
to U.S. taxpayers to be able to use the international United 
Nations peacekeepers rather than the United States having to 
fulfill that function.
    So, there is certainly a very important benefit to the U.N. 
peacekeeping missions and the overwhelming majority of those 
who are doing the work are doing it properly. But the sexual 
abuse perpetrated by U.N. peacekeepers must end--must end.
    Those who are perpetrators need to be held accountable. 
There can be no exception to that. Zero tolerance.
    And I must tell you, Mr. Chairman, you are right to be 
outraged, because we are talking about young children who are 
very vulnerable, who are poor, who have been subject to the 
most difficult lifestyles, being enticed by food or money to do 
horrible things under the United Nations.
    That cannot continue. So there has to be accountability 
here.
    The thing that gets Chairman Corker and me so concerned are 
the reports that, at least initially within the United Nations, 
the response was fragmented and bureaucratic, that it was not 
treated with the seriousness that it should have been treated. 
That is hard for us understand, the entity that is supposed to 
bring world peace and stability condoning, through their 
inactions, those types of activities.
    So, the United Nations passed a U.N. Security Council 
resolution last March. I have read it. It looks like an 
appropriate response. Will it be enforced? Will we be prepared, 
in fact, to repatriate all of the uniformed personnel from 
countries that are not doing what they need to do in training 
their personnel before they are in theater to deal with sexual 
abuse issues, holding those who violate accountable, including 
prison time. If not, they should not be part of the U.N. 
peacekeeping mission.
    Are we prepared to implement to that? And I say that 
because, Mr. Chairman, there are shortages of personnel. There 
are more countries that are now participating in U.N. 
peacekeeping missions, including those from developing 
countries, that may not have the same access to training. So, 
will the United Nations compromise the safety of young people 
in order to meet the numbers in the peacekeeping mission?
    If they do, the chairman and I are going to do everything 
we can to make sure they do not have the resources to do that. 
We are not going to support that type of activity.
    So there can be zero tolerance.
    And I really do look forward to the discussion we are going 
to have with our two panels today. And I do know that the 
people that are in front of us are working every day to make 
sure that the United States leadership makes it clear that we 
will not allow, or tolerate, that type of conduct, and we will 
demand that, particularly under the U.N. banner, that there be 
total accountability and no tolerance for this type of 
activity.
    The Chairman. Thank you, Senator Cardin. I very much 
appreciate your service here, too, very much.
    Our first witness is the Honorable Ambassador Isobel 
Coleman, U.S. Representative to the United States for U.N. 
Management and Reform. Our second witness today is the 
Honorable Tracey Ann Jacobson, Principal Deputy Assistant 
Secretary of State, Bureau of International Organization 
Affairs. Our third witness is Major General Michael D. 
Rothstein.
    Did I pronounce that correctly?
    General Rothstein. Yes, sir.
    The Chairman. Deputy Assistant Secretary for State for 
Plans, Programs, and Operations, State Department, Bureau of 
Political-Military Affairs.
    Again, we thank you all for your service to our country.
    I think all of you know that, without objection, your 
written testimony will be entered into the record, if you could 
summarize in about 5 minutes.
    And I would say that I know you all are very busy. To the 
extent you could hear the testimony of the second panel, it 
might be beneficial to you.
    But we thank you for yours here now, and if you could just 
start in the order that I introduced you, I would appreciate 
it.
    Again, thank you for taking the time to be with us today.

 STATEMENT OF HON. ISOBEL COLEMAN, U.S. REPRESENTATIVE TO THE 
UNITED NATIONS FOR U.N. MANAGEMENT AND REFORM, U.S. MISSION TO 
             THE UNITED NATIONS, NEW YORK, NEW YORK

    Ambassador Coleman. Thank you, Mr. Chairman and Ranking 
Member Cardin and other distinguished members of the panel, for 
inviting me here to testify today on this urgent and shameful 
issue of sexual abuse and exploitation by U.N. peacekeepers.
    Earlier this month, I had the opportunity to travel with 
Ambassador Power to the Central African Republic to witness the 
peaceful transfer of power to the newly elected President of 
that country. And in many ways, the trip underscored both the 
best and the very worst of U.N. peacekeeping.
    The presence of U.N. peacekeepers has been critical to 
staunching the ethnic violence in that country, violence that 
has led to the deaths of thousands of people and displaced 
hundreds of thousands of people. But as we all know, some 
MINUSCA troops have also been implicated in allegations of 
horrific sexual abuse, preying on the very people that they 
were sent to protect.
    During my time in CAR, Ambassador Power and I had the 
opportunity to travel to Bambari and meet with the families of 
victims. And their descriptions of the violence that their 
loved ones have suffered at the hands of U.N. peacekeepers were 
really powerful personal accounts that, for me, cut through the 
handwringing, frankly, the excuses for why this scourge has 
been allowed to persist for just too long.
    Sexual exploitation and abuse by U.N. peacekeepers is not a 
new problem. It has plagued missions from Bosnia to Haiti to 
the Democratic Republic of Congo to the Central African 
Republic.
    Let me read you just a short passage from an internal U.N. 
report documenting sexual abuse among peacekeepers. I am 
quoting, ``Some girls talked of rape disguised as prostitution, 
in which they said they were raped and given money or food 
afterward to give the rape the appearance of a consensual 
transaction.'' These words, I am sorry to say, come from the 
Zeid report in 2005.
    We know from the scope of current allegations now, more 
than a decade later, these very same offenses are still 
occurring. And despite years of U.N. leaders insisting on, 
quote, ``zero tolerance,'' a culture of impunity has been 
allowed to fester.
    When Ambassador Power asked me last year to lead our 
mission's efforts to establish a new paradigm for really 
tackling this scourge, it was clear that an unacceptable lack 
of transparency and accountability were at the heart of the 
issue.
    Yes, the U.N. published an annual report, tallying the 
numbers and types of sexual abuses by mission, by peacekeepers. 
But under pressure from the troop-contributing countries 
themselves, it withheld the nationality of the alleged 
perpetrators. And that made it difficult for member states to 
take collective action on tracking the status of investigations 
and the outcome of disciplinary action to hold perpetrators to 
account.
    In short, without transparency, real accountability was at 
best--at best--inconsistent.
    And this, finally, is changing.
    And, Senator, I share your outrage on this. To look back 
over so many years of words, of rhetoric, that has not resulted 
in true accountability is simply unacceptable.
    Last year, USUN led negotiations in the General Assembly 
for what I view as a breakthrough, finally, on transparency. We 
gained consensus among member states to support the Secretary 
General in his intent to name countries in his annual report, 
those countries whose troops have allegations against them, a 
long overdue step.
    As of early March this year, the U.N. is now reporting on 
its Web site. In real-time, it is posting credible allegations, 
along with the nationality of the alleged perpetrators. And 
with this information, we are pursuing a comprehensive approach 
to track individual cases and follow up with the appropriate 
authorities.
    In March, USUN brought the issue of sexual abuse, as you 
know, to the Security Council with Resolution 2272, another 
significant step forward for accountability. The resolution 
endorses the Secretary General's decision to repatriate 
peacekeeping units that have demonstrated a pattern of abuse, 
which is a clear indication of insufficient command-and-
control. And the Secretary General is empowered to repatriate 
all the troops from a mission from a particular troop- or 
police-contributing country, if it is not taking appropriate 
steps to investigate allegations against its personnel or has 
not held them accountable.
    Our goal is to see Resolution 2272 implemented fully as a 
means of powerful prevention by ending once and for all the 
culture of impunity that has persisted for too long.
    The other part of the strategy is to increase the overall 
supply of peacekeepers such that when military units or 
contingents are repatriated, there are others that are well-
trained and vetted, able to deploy quickly to take their place.
    The U.N. has come a long way in responding to this scourge 
of sexual abuse. With strong support from the United States, it 
has built up its investigative capabilities, increased training 
and vetting of troops, implemented greater community outreach 
to increase awareness about sexual abuse, instituted penalties 
for offenders, and is improving victims' assistance.
    But clearly, given the shocking scale and gravity of the 
sexual abuse incidents being reported from the Central African 
Republic and other missions, these actions by themselves are 
not sufficient to address the crisis.
    The U.N.'s recent commitments to greater transparency and 
accountability must, absolutely must, result in a long overdue 
sea change that ends impunity.
    Our work is not done. We continue to make it our highest 
priority, both in New York and bilaterally, to see perpetrators 
held to account and sorely lacking integrity restored to 
peacekeeping.
    Thank you.

    [Ambassador Coleman's prepared statement follows:]

Prepared Statement of Ambassador Isobel Coleman, U.S. Representative to 
    the United Nations for U.N. Management and Reform, New York, NY

    Thank you Mr. Chairman, Ranking Member Cardin and distinguished 
members of the Committee for inviting me to testify today on the 
urgent, and shameful, issue of sexual exploitation and abuse by U.N. 
Peacekeepers.
    Earlier this month, I had the opportunity to travel with Ambassador 
Power to the Central African Republic to witness the peaceful handover 
of power to the country's newly-elected leader, President Touadera. In 
many ways, the trip underscored both the best, and the very worst, of 
United Nations peacekeeping operations. The presence of U.N. 
peacekeepers has been crucial in stanching the ethnic violence that has 
wracked the Central African Republic, which has resulted in thousands 
of deaths and the displacement of hundreds of thousands of people. 
Today, the U.N.'s peacekeeping mission, MINUSCA, is not only keeping a 
fragile peace, but working with the new government to extend state 
authority, prepare for the demobilization and disarmament of militias, 
and build local capacity so that CAR can begin the long process of 
standing on its own feet.
    Yet as we all know, some MINUSCA troops have also been implicated 
in allegations of horrific sexual abuses, preying on the very people 
they have been sent to protect. During my time in CAR, Ambassador Power 
and I traveled to Bambari and visited with the families of some of the 
victims of that abuse. Their descriptions of the violence their loved 
ones have experienced at the hands of peacekeepers were powerful 
personal accounts that, for me, cut through all the statistics, the 
handwringing and frankly, the excuses about why this scourge has 
continued to happen. On that very same day, a host of additional 
allegations from the 2013--2015 time period came to light of abuses in 
Kemo prefecture--allegations that can only be described as gut-
wrenching and sickening.
    Sexual exploitation and abuse by U.N. peacekeepers is not a new 
problem. It has plagued missions from Bosnia to Haiti, to the 
Democratic Republic of the Congo to the Central African Republic. Let 
me read to you just one passage from an internal U.N. report 
documenting sexual abuse among peacekeepers:


        Sexual exploitation and abuse mostly involves the exchange of 
        sex for money (on average $1-$3 per encounter), or for food 
        (the report notes as little as two eggs from a soldier's 
        rations) . . .  Some young girls . . .  talked of ``rape 
        disguised as prostitution,'' in which they said they were raped 
        and given money or food afterwards to give the rape the 
        appearance of a consensual transaction.


    These words, I'm sorry to say, are from the Zeid Report, published 
by the U.N. in 2005. We know from the scope of current allegations that 
now, more than a decade later, these very same offenses are still 
occurring. Despite years of U.N. leaders insisting on ``zero 
tolerance,'' a culture of impunity has been allowed to fester.
    When Ambassador Power asked me last year to lead our mission's 
efforts in helping to establish a new paradigm for tackling this 
scourge, it was clear that an unacceptable lack of transparency and 
accountability were at the heart of the problem. Yes, the U.N. 
published an annual report tallying the numbers and types of SEA 
incidents by peacekeeping mission, but under pressure from the troop 
contributing countries themselves, it withheld the nationality of 
alleged perpetrators. That made it difficult for Member States to take 
collective action on tracking the status of investigations and the 
outcome of disciplinary action or other actions to hold perpetrators to 
account, and assessing the appropriateness of steps taken by the U.N. 
to address the issue. In short, without transparency, real 
accountability was at best, inconsistent. But that, finally, is 
changing.
    Last year, USUN led negotiations in the General Assembly for a 
breakthrough on transparency, gaining consensus among Member States to 
support the Secretary General in his intent to name countries in his 
annual SEA report--a long-overdue step. As of March, the U.N. now posts 
credible allegations on its website, along with the nationality of the 
alleged perpetrators. With this information, we are pursuing a 
comprehensive approach as outlined earlier by PDAS Jacobson, to track 
individual cases and follow up with the appropriate authorities, 
including through engagement in capitals, to determine the status of 
investigations and encourage effective judicial proceedings where 
appropriate. This is part of our broader interagency effort to improve 
peacekeeping performance and accountability per the Presidential Policy 
Memorandum on U.S. Support to U.N. Peace Operations.
    In March, in an effort to broaden responsibility within the U.N., 
USUN brought the issue of SEA to the Security Council, which adopted 
U.N. Security Council Resolution (UNSCR) 2272--another significant step 
forward for accountability. The resolution endorses the Secretary 
General's decision to repatriate peacekeeping units that have 
demonstrated a pattern of abuse--which is a clear indication of 
insufficient command and control. Going further, UNSCR 2272 empowers 
the Secretary General to repatriate all troops from a mission from a 
particular TCC or PCC whose personnel are the subject of an allegation 
if that TCC or PCC is not taking appropriate steps to investigate SEA 
allegations against its personnel or, when warranted, has not held the 
perpetrators accountable or has not informed the Secretary General of 
the progress of its investigations or of other actions taken. In such 
situations, it requests the Secretary-General to seek replacement of 
those troops or police with personnel from another contributing 
country.
    Our goal is to see UNSCR 2272 implemented fully as a means of 
powerful prevention by ending once and for all the culture of impunity 
for SEA in peacekeeping that has persisted for too long. Already, we 
are seeing positive signs of change, with the U.N. having repatriated 
military units from MINUSCA for SEA. It has alerted the relevant 
contributing countries that the U.N. is conducting its review of these 
most recent additional allegations against U.N. peacekeepers in CAR to 
repatriate peacekeepers if there is a pattern of abuse.
    The other part of this strategy, as also noted earlier, is to 
increase the overall supply of peacekeepers such that when military 
units or contingents are repatriated, others that are well trained and 
vetted are available to deploy quickly to take their place. President 
Obama's Peacekeeping Summit at the U.N. last September resulted in new 
pledges to peacekeeping of over 40,000 military and police personnel--
an increase in supply that over time will allow the U.N. to more 
aggressively address a broad range of performance and peacekeeping 
issues, in addition to SEA.
    The U.N. has come a long way in recent years in responding to the 
scourge of SEA, with strong support from the United States. It has 
built up its investigative capabilities, increased training and vetting 
of troops, implemented greater community outreach to increase awareness 
about SEA and reporting mechanisms, instituted penalties for offenders, 
and is improving victim's assistance. Clearly, given the shocking scale 
and gravity of the SEA incidents being reported from CAR and other 
missions, these actions are necessary but by themselves are not 
sufficient to address the crisis. The U.N.'s recent commitments to 
greater transparency and accountability must result in a long-overdue 
sea change that ends impunity. Our work is not done. We continue to 
make it our highest priority both in New York at the U.N. and 
bilaterally to see perpetrators held to account and sorely lacking 
integrity restored to peacekeeping.


    The Chairman. Thank you.

    STATEMENT OF HON. TRACEY ANN JACOBSON, PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY, BUREAU OF INTERNATIONAL ORGANIZATION 
       AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Jacobson. Mr. Chairman, members of the 
committee, I am honored to be here with you today to talk about 
this horrific issue that demands urgent, meaningful, and 
sustained effort.
    Sexual exploitation and abuse by U.N. peacekeepers is a 
cancer that demands the most comprehensive treatment possible. 
And our well-justified collective outrage is only useful if it 
is paired with action.
    I begin by noting that the United States has long been a 
vocal advocate for increased transparency and accountability as 
it relates to allegations of sexual exploitation and abuse by 
U.N. peacekeepers. We are pleased that this push for 
transparency is finally starting to find its first traction.
    And while it is clear, as you note, that the actions taken 
so far by the U.N. and member states have fallen far short of 
the mark, certain recent actions taken by the Secretary General 
reflect a new seriousness and create important new avenues for 
member state engagement.
    Some of these steps include improved reporting systems for 
victims and their communities, the creation of immediate 
response teams to collect and secure evidence for use in 
investigations, withholding of payments to troop- and police-
contributing missions for their staff that have been sent home 
under allegations of misconduct, and the creation of task 
forces in all peacekeeping operations on sexual exploitation 
and abuse.
    And I will also note that, in February, the Secretary 
General took the unprecedented step of sending home an entire 
contingent from the Democratic Republic of Congo who had been 
working in Central African Republic based on credible 
allegations of exploitation and abuse. This is the first time 
that the Secretary General has taken such a step. It sets an 
important precedent and we believe it sends an important signal 
to troop- and police-contributing countries.
    We particularly welcome the Secretary General's action to 
identify the nationalities of those uniformed personnel who are 
accused of committing sexual exploitation and abuse, including 
this information online in near real-time.
    Troop- and police-contributing countries have the ultimate 
responsibility for the discipline of their personnel. And by 
providing this information publicly, the U.N. can motivate 
these countries to do much better.
    It also allows member states to track performance, to 
recognize serious patterns of abuse, and to use our diplomatic 
weight to urge the U.N. to repatriate units that have a 
systemic pattern of misconduct, and to ban countries from 
peacekeeping where appropriate.
    This new level of information has also allowed us to direct 
our bilateral engagement where it is most needed. Last month, 
we launched an effort to reach out to every country on the 
U.N.'s list in the Secretary General's report at senior levels 
to accomplish three goals: first, to make sure that they were 
aware of the report and the allegations concerning their 
troops; second, to demand credible action in terms of 
investigation and holding those responsible to account, 
including through prosecution when appropriate where crimes 
have been committed; and thirdly, to identify those areas where 
the United States might provide capacity-building assistance to 
help these countries better investigate and prosecute crimes 
involving sexual exploitation and abuse.
    I would also note that the Secretary General's report 
included allegations of sexual exploitation and abuse against 
civilian personnel of the U.N. and different agencies. Based on 
that information, we are following up directly with those 
agencies to make sure that they take all necessary action.
    Mr. Chairman, any instance of sexual exploitation and abuse 
does very real damage to the credibility of the institution of 
peacekeeping, a tool that has never been more important for 
global peace and security, and one on which the United States 
relies to stabilize conflict situations that could otherwise 
spiral out of control.
    Last year, the President hosted the Leaders' Summit on 
Peacekeeping and issued a new presidential memorandum 
reaffirming our strong support for U.N. peace operations and 
directing new efforts to strengthen and modernize these 
operations. These efforts are well-timed to bolster our actions 
on sexual exploitation and abuse.
    For example, new commitments in the President's summit last 
year included 40,000 troops and police, and this should send a 
message to troop- and police-contributing countries that peace 
operations are no longer a sellers' market.
    This increased capability should allow the U.N. to 
prioritize better performing troops in its deployments and also 
give it the flexibility to replace units potentially withdrawn 
for misconduct.
    Mr. Chairman, my colleagues with me today are well-placed 
to speak specifically to issues of the reforms we have pursued 
at the U.N. and the training that we provide and capacity that 
we provide to peacekeeping troops in the field.
    I will conclude by saying that, by their very mandate, the 
vast majority of U.N. peacekeepers are serving under a mandate 
to protect civilians who are under threat of physical violence. 
Exploiting or abusing these same vulnerable people is appalling 
and an unconscionable breach of trust. And we greatly 
appreciate the attention this committee is bringing to the 
issue and share your outrage at what has been allowed to occur.

    [Ambassador Jacobson's prepared statement follows:]

  Prepared Statement of Ambassador Tracey Jacobson, Principal Deputy 
  Assistant Secretary of State for International Organization Affairs

    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify today on an issue that demands urgent, 
meaningful, and sustained action. Sexual exploitation and abuse by U.N. 
peacekeepers is a cancer that demands the most comprehensive treatment 
possible, and while our collective outrage is well justified, that 
outrage is only useful if it is paired with action.
    As you know well, in early March U.N. Secretary-General Ban ki-Moon 
released his annual report on SEA detailing a shocking number of 
allegations of sexual exploitation and abuse by U.N. civilian and 
uniformed personnel in 2015 alone. While we welcome the Secretary-
General's efforts to improve transparency on these matters, the report 
also illuminates an important truth--that the steps the U.N. and its 
member states were taking to address this crisis were falling far short 
of the need.
    However, we believe certain recent actions taken by the U.N. not 
only reflect a new seriousness, but also create important new avenues 
for member state engagement.
    For example, we're watching closely the Secretary-General's efforts 
aimed at strengthening the U.N. system's capacity to respond. These 
include steps to leverage the international presence in any post-
conflict environment, improve reporting systems for victims and 
communities, the creation of immediate response teams to gather and 
preserve evidence for use in investigations, suspending reimbursement 
to troop- and police- contributing countries for uniformed personnel 
who are sent home for alleged misconduct, and the establishment of 
sexual exploitation and abuse taskforces in U.N. peace operations.
    I will also note that in February the Secretary-General took the 
groundbreaking action of repatriating an entire contingent of 
peacekeepers from the Democratic Republic of Congo from the U.N. 
peacekeeping mission in Central African Republic largely due to 
credible allegations of sexual exploitation and abuse. This contingent 
was replaced by troops from another country. Although this was the 
first time the Secretary-General had taken such a step, it sets an 
important precedent and we believe it sends a strong message to other 
troop and police contributing countries.
    And we particularly welcome the Secretary-General's action to begin 
identifying the nationality of military and police personnel alleged to 
have committed sexual exploitation and abuse as well as judicial or 
administrative actions taken by their governments.
    This is an important step. Troop and police contributing countries 
are responsible for the discipline of their personnel. Public 
identification can motivate countries unwilling to take appropriate 
steps to prevent and respond to SEA to change the way they do business.
    Transparency can also help to identify which countries may require 
further capacity building, including training to prevent SEA, to 
investigate and prosecute criminal SEA in their national military and 
civilian justice systems, and general professionalization. As 
importantly, the identification of countries will also allow Member 
States to identify serious patterns of misconduct, so that we can use 
our diplomatic muscle to urge the U.N. to repatriate units and 
contingents and when necessary suspend these countries from 
contributing uniformed personnel until they can demonstrate they have 
taken adequate corrective actions.
    According to the Secretary General's annual report released in 
March, there were 69 allegations of sexual exploitation and abuse in 
U.N. peacekeeping operations and special political missions from 21\1\ 
countries in 2015. Since then, there have been additional reported 
instances in 2015 and 2016--we know this because in another welcome 
development, the U.N. has started posting allegations in near-real time 
on their website.
---------------------------------------------------------------------------
    \1\ Burundi, Cameroon, Congo-Brazzaville, Democratic Republic of 
the Congo, Gabon, Morocco, Burkina Faso, Nigeria, Benin, South Africa, 
Tanzania, Slovakia, Niger, Moldova, Togo, Canada, Rwanda, Madagascar, 
Senegal, Ghana, and Germany.
---------------------------------------------------------------------------
    Although the State Department and our mission to the U.N. in New 
York have a long track record of using diplomatic engagement to jolt 
the U.N. and troop and police contributing countries into action on 
this issue, this new level of information has allowed the United States 
to focus our efforts where most needed. Last month we launched an 
effort to approach all the countries on the U.N.'s list at senior 
government levels to accomplish three goals:
    First, to ensure their full awareness of the report and 
allegations. Second, to seek their firm commitment to investigate 
credibly and hold those found responsible to account, including through 
prosecution where appropriate when crimes have been committed. And 
third, to discuss potential areas of cooperation where the United 
States might support improved capacity to investigate and prosecute 
crimes involving SEA.
    Our ongoing effort includes asking other countries to be similarly 
engaged with troop and police contributing countries.
    I will also note that the Secretary-General's report detailed 
allegations of sexual exploitation and abuse by civilian personnel 
serving in other U.N. entities. Based on that reporting, we have 
approached relevant U.N. agencies to ensure they are taking needed 
action.
    Mr. Chairman, any instance of sexual exploitation and abuse does 
very real damage to the credibility of the institution of 
peacekeeping--a tool that has never been more important to global peace 
and security, and upon which the U.S. relies to stabilize conflicts 
that might otherwise spiral out of control.
    It is our goal to bring these practices to a definitive end in 
order to ensure U.N. peacekeeping remains an available, effective 
tool--and one that operates to the highest standards of 
professionalism, capacity, and conduct.
    It is exactly that goal that prompted the President to host the 
Leaders' Summit on Peacekeeping at last year's U.N. General Assembly 
and to issue a new Presidential Memorandum reaffirming our strong 
support for U.N. peace operations and directing new actions to 
strengthen and modernize these operations.
    These efforts are well-timed to bolster action on sexual 
exploitation and abuse. For example, the Leaders' Summit resulted in 
commitments from more than fifty countries of nearly 150 new military 
and police contributions to U.N. peacekeeping, amounting to more than 
40,000 troops and police.
    We are pushing pledging countries to realize these new commitments, 
which will send a message to other troop and police contributing 
countries that this is no longer a seller's market. New capacities 
should allow the U.N. to prioritize better performing troops and police 
for deployment if a new mission is stood-up or if new gaps arise in 
existing missions, and they provide the U.N. with flexibility to 
replace contingents potentially withdrawn for misconduct.
    The Presidential Policy Memorandum has changed the way the 
interagency works on peacekeeping. In the six months since it has been 
issued, the State Department and the Department of Defense have begun 
to work more closely and collaboratively on U.N. peacekeeping.
    Although the U.S. Mission to the U.N. takes the lead on diplomacy 
and outreach in New York, the interagency contributes to their 
strategies and we send interagency delegations to New York to deliver 
clear messages about the actions that should be taken by the 
Secretariat and by the Permanent Missions to prevent and respond to 
SEA. Our colleagues in the bureaus for African Affairs, Political-
Military Affairs, and International Narcotic and Law Enforcement work 
in partnership with the Department of Defense (DoD) to take the lead on 
strengthening U.S. peacekeeping capacity-building programs, but we all 
contribute to important aspects of their planning.
    At State, we continue to do targeted outreach through posts and in 
multilateral dialogues, often with DoD standing alongside, to deliver 
tough messages and requests on performance and SEA. We are leveraging 
all of our tools, and by doing it jointly we have greater impact. The 
current nature and intensity of interagency collaboration on U.N. 
peacekeeping reform is unprecedented and we will continue to focus our 
efforts to improve peacekeeper performance, including ending the 
current scourge of SEA.
    Mr. Chairman, my colleagues with me today from the U.S. Mission to 
the U.N. and from the Bureau of Political-Military Affairs are well-
placed to flesh out their efforts to promote oversight and reform, 
training, capacity-building, etc.
    I will conclude by noting that by their very mandates, the vast 
majority of U.N. peace operations are intended to protect civilians 
under threat of physical violence. Exploiting or abusing these same 
vulnerable people is appalling and an inexcusable breach of trust, and 
we greatly appreciate this Committee's attention to the issue.


    The Chairman. Thank you.
    Ambassador Jacobson. Thank you.
    The Chairman. General?

    STATEMENT OF MAJOR GENERAL MICHAEL D. ROTHSTEIN, DEPUTY 
ASSISTANT SECRETARY FOR PLANS, PROGRAMS, AND OPERATIONS, BUREAU 
   OF POLITICAL-MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    General Rothstein. Good afternoon, Mr. Chairman, Ranking 
Member Cardin, members of the committee.
    Thank you for letting me speak today. And I, too, like my 
colleagues, am very deeply troubled by what brings us here 
today and the things we have to discuss about these events and 
incidents.
    Among my duties at the State Department, I am responsible 
for providing executive leadership for the Global Peace 
Operations Initiative. I will take just a moment to give you a 
little bit of background on that, and then I will discuss its 
intersection with preventing sexual exploitation and abuse.
    GPOI, the Global Peace Operations Initiative, is our 
flagship security assistance program that focuses on building 
capacity for other countries to deploy peacekeepers to support 
United Nations or other regional missions. For the most part, 
it is a training and equipping kind of admission, although we 
also focus on building their self-sufficiency to do training 
for themselves. And importantly, of note, one of our key 
program objectives is to promote the role of women and to 
promote better gender integration into their operations.
    GPOI has been very successful in helping other countries 
step up to their responsibilities for international security. 
It also allows us, and our own U.S. forces, to focus our 
military on other priorities besides peacekeeping.
    To date, the program has facilitated the deployment of more 
than 200,000 personnel to 29 different operations around the 
world.
    And today, GPOI partners, although they only comprise 40 
percent of the troop-contributing countries, punch well above 
their weight class by providing more than 70 percent of the 
troops that are forming those missions.
    Through GPOI and through our diplomatic engagement, as my 
colleague mentioned earlier, we are working to expand the base 
of the number of countries and the number of troops that are 
available to the U.N. to support these missions. And I would 
echo what my colleague said, that we think this will help by 
having more troops out there raise the standard not only for 
mission performance but also for conduct and discipline.
    Now let me be clear for the record. I think I share the 
sentiment of everyone in here that each and every instance of 
sexual exploitation and abuse by any peacekeeper is absolutely 
unacceptable, not only for the harm it causes directly, but it 
also fundamentally undermines the mission and legitimacy of 
what it is trying to occur.
    Now GPOI is very deliberately structured to try to 
proactively address sexual exploitation and abuse. In program 
execution, we direct that all appropriate individual and unit 
training has elements of academics and things that go against 
sexual exploitation and abuse built into their training.
    We start in the classroom. We move on to scenario- based 
training. And then we move on in exercise-related training at 
both the individual unit and leader level.
    We pay particular attention to training leaders, because we 
are keenly aware of the very important role that leadership 
plays and how significant a positive impact of effective 
leadership can have downrange once they are in mission.
    And then GPOI also works to promote the role of women and 
to promote gender integration. We specifically seek out women 
as trainers, because we understand the positive impact that can 
have. And over the past 5 years, the 50 active countries that 
are GPOI partners, they have nearly doubled the number of women 
that they deploy in mission for U.N. peacekeeping. And to give 
you a point of contrast, the 71 countries that are not GPOI 
partners that participate in peacekeeping, they have actually 
had a decrease of 16 percent of the number of women that are 
being deployed.
    So I am very comfortable that GPOI is having a positive 
impact in this area and through that influence.
    Now while we are proud of GPOI's efforts to address this 
issue, and I do believe we are positively shaping behavior and 
outcome, no amount of training, no better gender integration, 
is a panacea.
    As we know, there are far too many serious instances that 
still occur. And I, like my colleagues, am hopeful that recent 
U.N. policy changes to promote transparency will help. They 
have to continue to follow through.
    And if a GPOI partner fails to follow up on those 
allegations, if they fail to take responsible action through 
their jurisprudence system, then we have to be ready as a 
Nation to consider suspending our security assistance. We have 
to take a very deliberate decision on how we do that.
    In the end, well-trained, well-disciplined, well-equipped 
units, they are the very building blocks to effective 
peacekeeping. And while there are many GPOI success stories out 
there, we are also very well aware that the track record is not 
perfect by any means.
    And so, whether it is directly or indirectly, through 
ongoing training, through expanding the role of women, we 
remain committed for improvement overseas with the U.N., with 
our partner countries, to rid us of this scourge of sexual 
exploitation and abuse.
    Thank you for your time. I stand by for your questions.

    [General Rothstein's prepared statement follows:]

Prepared Statement of Major General Michael Rothstein, Deputy Assistant 
  Secretary for Plans, Programs, and Operations, Bureau of Political-
       Military Affairs, U.S. Department of State, Washington, DC

    Good morning Mr. Chairman, Ranking Member Cardin and members of the 
committee. I am U.S. Air Force Major General Michael Rothstein, here 
before you in my capacity as Deputy Assistant Secretary for Plans, 
Programs, and Operations in the U.S. Department of State's Bureau of 
Political-Military Affairs.
    Among my duties at the State Department, I am responsible for 
providing executive leadership and guidance for U.S. government global 
security assistance programs and policies, such as the Global Peace 
Operations Initiative (GPOI)--which I look forward to discussing with 
you today. As an active-duty member of the armed services on detail to 
the State Department, one might say I am ``living proof'' of State and 
DoD's commitment to coordination and collaboration.
    gpoi as a flagship program for building global peace operations 
                                capacity
    Peacekeeping missions are a critical tool for promoting peace and 
reconciliation in some of the world's most troubled countries. As 
Ambassador Power highlighted to this committee in December of last 
year: ``Even when the United States has an interest in seeing conflict 
abate or civilians protected, that does not mean that U.S. forces 
should be doing all of the abating or the protecting.''
    While the U.S. cannot and should not send the U.S. military into 
all of the world's conflict zones, we have a compelling interest in 
curbing violent conflicts and preventing suffering around the world, 
and we need international peacekeeping to work. GPOI serves as our 
flagship program for building global peace operations capacity, and is 
one of the key ways the United States advances its vital interest in 
strengthening peacekeeping.
    GPOI works to strengthen international capacity and capabilities to 
implement United Nations (U.N.) and regional peace operations. It 
builds the capacity of our partners and enhances their capabilities to 
meet the growing global demand for specially trained personnel required 
for peace operations. GPOI supports not only military peacekeeping 
activities, but also contributes to the development of formed police 
units (FPUs), complementing the efforts of our colleagues in the State 
Department's Bureau of International Narcotics and Law Enforcement 
Affairs.
    In addition to being the world's leading financial supporter of 
U.N. peacekeeping, the United States is also the largest trainer and 
equipper of military and police contingents deploying to peacekeeping 
operations in the world. Programs like GPOI have played a pivotal role 
in meeting the expanding need for well-trained, adequately equipped 
peacekeepers capable of responding to evolving mission requirements. To 
date, the program has facilitated the deployment of more than 200,000 
personnel to 29 peace operations around the world. Moreover, assistance 
and engagement through GPOI have directly advanced the will and ability 
of partner countries to deploy key enabling capabilities essential to 
mission success, such as aviation, engineering, or medical units, as 
well as to deploy more basic units to higher risk missions. GPOI is 
further working to expand the base of troop and police contributors and 
help create a surplus of peacekeeping forces. Importantly, this will 
allow the international community to be more selective in choosing 
which forces will deploy for which missions and help both raise and 
enforce standards.
 how gpoi works directly to prevent sexual exploitation and abuse (sea)
    Let me be clear: each and every instance of sexual exploitation and 
abuse by members of any peacekeeping force undermines the force's 
mission and legitimacy. Given the strategic importance of multilateral 
peace operations to U.S. national security and foreign policy 
objectives, we strongly believe contributing countries must take steps 
to ensure that personnel assigned to peacekeeping missions are properly 
trained, vetted, scrupulously professional in their conduct, and held 
to account when their actions fall below those standards. GPOI and our 
broader security assistance and security cooperation programs play a 
key part in supporting the efforts of our partner countries to 
professionalize their security forces and enforce stringent conduct and 
discipline standards.
    GPOI is consciously structured to proactively address these serious 
issues. GPOI training and support programs must adhere to the GPOI 
Strategy, which includes prevention of sexual exploitation and abuse in 
one of its seven program objectives. Additionally, all GPOI training 
must follow specific training requirements identified in program 
guidance to our implementers and trainers in the field--guidance that 
is emphasized and reemphasized throughout the year at regional and 
global roundtable consultations to address best practices in 
identifying and addressing this critical issue.
    In 2015, GPOI funded 130 training events and courses around the 
world. These programs explain the U.N.'s zero tolerance policy against 
sexual exploitation and abuse and emphasize the critical role that 
individuals, units and leaders play in preventing sexual exploitation 
and abuse. Where appropriate, GPOI-funded training incorporates 
instruction on human rights, conduct, and discipline, including the 
preventions of sexual exploitation and abuse; protection of civilians, 
including the prevention of sexual and gender-based violence, and child 
protection.
    At the individual level, such training includes examples, 
perceptions and definitions of sexual exploitation and abuse, in order 
for prospective peacekeepers to fully grasp its impact on individuals, 
the population, and the peacekeeping mission. These lessons outline 
peacekeeper standards of conduct including individual and leadership 
responsibilities for preventing, responding to and reporting sexual 
exploitation and abuse, as well as discussingthe consequences of sexual 
misconduct. This training is further reinforced as part of unit level 
trainings.
    While preventing sexual exploitation and abuse is the 
responsibility of every peacekeeper, GPOI training places particular 
emphasis on the critical role that unit leaders play in this task. For 
example, this topic is stressed as part of battalion-level pre-
deployment training we provide through the GPOI-funded Africa 
Contingency Operations and Training Assistance, or ACOTA, program, as 
well as the Contingent Commander courses we sponsor in Africa, the 
Asia-Pacific regions, and elsewhere. This training places a focus on 
commanders' responsibilities to enforce conduct and discipline among 
their troops, including sexual exploitation and abuse and other forms 
of misconduct.
     how gpoi helps prevent sea by promoting the role of women and 
        enhanced gender integration into peacekeeping operations
    Working to include women as equal partners in preventing conflict 
and building peace in countries threatened and affected by war, 
violence, and insecurity can also help reduce instances of sexual 
exploitation and abuse and gender-based violence. This is why, in 
addition to direct support for this specialized training, GPOI 
consciously works to prevent sexual exploitation and abuse by promoting 
the role of women and influencing partner countries to increase gender 
integration into U.N. and regional peacekeeping operations, including 
specifically seeking out women to serve as trainers for foreign 
military or police units.
    Over the past five years, the 50 active GPOI partner countries have 
nearly doubled the number of female military peacekeepers deployed to 
2,539 and more than doubled the number of female FPU officers to 513. 
Additionally, GPOI has provided more than $3 million specifically for 
women, peace and security and related protection of civilian 
initiatives in support of the U.N. and partner countries across the 
globe. As a point of contrast during this same period, the 71 countries 
that are not GPOI partners actually decreased the number of deployed 
females from 604 to 508, a loss of 16%.
    GPOI also provides funding assistance for gender-specific 
facilities refurbishment to enable gender integration and more systemic 
training of female peacekeepers, such as the establishment of female 
barracks, latrines and showers at peacekeeping training centers.
         broader efforts required to prevent and respond to sea
    Training and gender integration initiatives, such as efforts the 
U.S. Government implements through GPOI and complementary security 
assistance and cooperation programs are foundational to sexual 
exploitation and abuse prevention efforts. We will continue to actively 
explore ways in which we can strengthen training and reinforce 
messaging on these critical issues.
    However, it is important to note that training is only a small part 
of a broader, holistic effort required to more effectively prevent 
sexual exploitation and abuse in U.N. and regional peace operations. 
Many factors beyond training underlie sexual exploitation and abuse and 
other conduct and discipline issues. Individual morals, cultural 
values, unit professionalism, leadership, and education among other 
considerations, can contribute to conditions that foster peacekeeper 
conduct and discipline problems.
    While we commit to objectively examining the effectiveness of our 
GPOI training activities, training is but one piece of the solution to 
this pervasive problem. We must also continue our work with the U.N., 
troop and police contributing countries, and other international 
stakeholders to examine and address issues underlying the prevalence of 
sexual exploitation and abuse in some peacekeeping missions and to work 
together to implement more effective prevention measures.
    Moreover, greater efforts must be undertaken. We must continue to 
push the U.N. for greater transparency and accountability in 
allegations and investigations and for the U.N. to clarify roles and 
responsibilities for conducting sexual exploitation and abuse 
investigations. Additionally we must engage diplomatically and consider 
security assistance to troop or police contributing countries to 
strengthen both their political will and their actual capacity to 
respond effectively to allegations.
    In some cases, troop or police contributors demonstrate the will to 
pursue allegations but lack the institutional capacity to conduct 
timely, effective investigations or, where appropriate, to prosecute 
cases through either a military or civilian justice system. In other 
cases, countries' leaders may view sexual exploitation and abuse 
allegations less seriously than warranted and be reluctant to take 
appropriate action. Accordingly, we must continue to work 
collaboratively within the interagency and with the U.N., U.N. member 
states, including troop and police contributors, and other 
international stakeholders to develop the investigative, prosecution, 
and other mechanisms to hold perpetrators accountable, as well as to 
pressure those countries reluctant to take appropriate action when 
necessary. If countries fail to respond appropriately, we are and must 
be willing to deliberately consider withholding further GPOI 
assistance.
   the presidential policy memorandum on u.s. support to u.n. peace 
                               operations
    Although GPOI has long been invested in efforts to prevent sexual 
exploitation and abuse, the issuance of the Presidential Policy 
Memorandum on U.S. Support to U.N. Peace Operations in September 2015 
has broadened and strengthened our efforts. We are working closely with 
the International Organizations Bureau, INL and others at the State 
Department, the U.S. Mission to the U.N., and the Department of Defense 
to implement the policy. Together, we are taking steps to address a 
broad range of peacekeeping performance and accountability issues, with 
particular attention to sexual exploitation and abuse by coordinating 
and complementing how we use our programming and influence as the 
largest trainer and equipper of peacekeeping troops, our direct 
personnel contributions to U.N. peacekeeping missions, and our 
diplomatic influence at U.N. headquarters.
                               conclusion
    Ultimately, the building blocks of an effective peacekeeping force 
are well-trained, disciplined and properly equipped security forces. 
Through GPOI and other security capacity building programs, the United 
States works to help our partners field peacekeeping forces of which 
the vast majority live up to high standards of professionalism, 
discipline and conduct. While there are many success stories, the track 
record is certainly not perfect. Whether it's directly or indirectly, 
through ongoing training or through expanding the role of women in 
peacekeeping and society, we are committed to helping prevent and 
combat sexual exploitation and abuse among peacekeeping forces.
    I look forward to your questions. Thank you.


    The Chairman. We thank you all for your testimony.
    Look, my guess is that you all are as upset about this as 
we are. You work in an organization that, whether it is at 
State, certainly at the U.N., where trying to make something 
happen is almost impossible. And my sense is you probably do 
welcome a hearing like this to highlight the problems that 
exist.
    My understanding is that the level of violence, sexual 
abuse, the kinds of things that are happening to vulnerable 
people that we are supposed to be protecting, is actually much 
higher than is reported, because the very people that are out 
there, quote, ``protecting'' populations are also protecting, 
in many cases, the human rights workers who may, in fact, be 
reporting this.
    So would that assumption, Ambassador Coleman, be 
appropriate that, in fact, the reporting levels are far lower 
than they otherwise would be because people are out in the 
field. These peacekeeping folks are there to protect them, too, 
and there are concerns about when they are in the field making 
reports.
    Ambassador Coleman. Thank you, Senator, for that question. 
I think that you are absolutely correct to make the assumption 
that levels of reporting are below what they actually are.
    I think it is for variety of reasons. I think that what we 
are seeing in the Central African Republic with a lot of the 
allegations coming to light now in particular parts of the 
country are because the security situation is improving, and we 
are now able to send more people out to some of these remote 
areas where you have had a single-country contingent, which in 
and of itself is a risk factor, which the U.N. is now 
recognizing, that in remote areas we should not have single-
country contingents.
    So I think you are seeing an improvement in security, which 
is allowing people from the community to feel more safe and 
comfortable to come forward and report abuses. And what I can 
tell you, Mr. Chairman, is that I think, in the coming months, 
we are going to see more allegations coming to light. I do not 
think we have nearly seen the end of this problem.
    As the U.N. shines a spotlight on this issue, we are going 
to see more allegations, not fewer.
    The Chairman. Which countries are the ones that are the 
worst? Name them.
    Ambassador Coleman. You know, I wish I could say that this 
was just a couple of countries, but what we are seeing is that 
it runs the full gamut of countries, from countries with 
seemingly very well-trained and equipped and disciplined 
troops. I mean, the French forces, the Sangaris forces have 
been named, two countries, Burundi, Gabon, the Tanzanians in 
the DRC, the DRC troops themselves, the Moroccans.
    There are many, many countries that have these allegations. 
So I cannot point a finger at one being particularly bad. We do 
know that in the Central African Republic, the contingents that 
have been repatriated were the troops from the Republic of 
Congo and the Democratic Republic of Congo and they were 
repatriated because there was----
    The Chairman. I got it. I apologize. I have to get things 
in within a certain time.
    Ambassador Coleman. Yes.
    The Chairman. I have a whole list of countries here that it 
is beyond belief that some of them--Germany, other countries.
    Let me ask you this. If I could ask a personal question, 
have you all had kids? You all have family?
    If you knew a U.N. peacekeeping mission was going to your 
neighborhood right now, would you not have the same response I 
had, that you would rush home to protect your family from the 
peacekeepers? Would that be your response, honestly? Would you 
please tell me?
    Ambassador Coleman. Mr. Chairman, I have five kids. And 
when I was preparing for this testimony today, last night, and 
I had to talk with my daughters about what I was doing and what 
I would be talking about, it was a very difficult conversation.
    What I can also tell you is, having just recently returned 
from the Central African Republic, I am so thankful that my 
children are being raised in the United States and in an 
environment where rule of law is primary.
    And in the Central African Republic, I met people who are 
the victims of sexual exploitation and abuse. Their families 
have suffered it directly. And I asked them that question, 
would you prefer that there were no peacekeepers here? And I 
actually did not know what the answer would be. Ambassador 
Power and I sat together with them. Would you prefer, given 
what you have experienced, that peacekeepers return home? And 
all of them said, ``No, what we want is we want accountability. 
We want justice to be served.''
    The Chairman. Let me ask you this. What is wrong with the 
Secretary General of the U.N.? This report, the one that you 
referred to, is 10 years old. What is wrong with him? What is 
wrong with him? I mean, is he just so inept--inept--that he 
cannot cause a body like this to keep this from happening over 
and over and over again? And we are just now beginning to put 
processes in place? What is wrong with him?
    Ambassador Coleman. What I would say, Mr. Chairman, is that 
those processes have been put in place coming out of that 
report a decade ago, but they have never been acted upon in a 
way that they must be acted upon.
    The Chairman. That is my point. How do we put up with such 
inept leadership at the United Nations? How do we do that?
    Ambassador Coleman. I do not think it is ineptitude. I 
think it is a reluctance to take on the opposition of troop-
contributing countries that do not want to deal with this issue 
in the transparent way that it must be dealt with, and with 
accountability.
    The Chairman. Let me ask you that. We have a law here 
called the Leahy Act, which says when we know of things like 
this, we withhold money. Have we withheld money?
    General Rothstein. So, Mr. Chairman, I cannot give you an 
example where we have withheld money for these things.
    The good news is, up until recently, we did not have the 
kind of visibility that we needed to be able to pursue these 
things.
    Now, certainly, with the Leahy law, when we have credible 
evidence of individuals or units, then we go forth not to do 
security assistance with them anymore, and that is out there. 
And all the units that we train already, we vet through that 
process. So any of the training that we have done has been 
vetted through that Leahy-vetted process.
    What is good about what is happening now, and should have 
been happening sooner I think we would all agree, is that now 
we are starting to get more information coming in from the U.N. 
that we did not have access to before. And that is going to 
allow us to do this better than we have done it before.
    The Chairman. We may go to a second round with you all, but 
I look at the list of countries that are violators. Most of 
them--many of them, let me put it this way--are countries that 
receive aid from the United States in other forms. I do not 
understand why we continue to send money to countries outside 
of the U.N. that allow this type of abuse to take place. So I 
do not think we are using the leverage that we have.
    We, I think, should be withholding payments to the U.N. 
until this ends or doing some level of reductions, but it seems 
to me that this is not that important to the U.N., or they 
would have done much more about it over the last 10 years.
    By the way, those people you talked to I would say were 
somewhat fearful to tell you they did not want them to be 
there, with U.N. officials being in your presence.
    But I just do not think the United States is using the 
leverage that we have, not at your level, at other levels, to 
stop this. And I think the U.N. is, I think, in great jeopardy 
of building enough critical mass around here where severe 
penalties should be taken against them with withholding of 
funds from them, because of their ineptness, their lack of 
concern, their lack of care after 10 years to continue to allow 
this to occur.
    So I hope actions and I plan to be a part of actions being 
taken against them, because it is obviously something that is 
not very important to them. Otherwise, this could have been 
stopped a long time ago--ineptness, lack of a moral compass, 
lack of concern for vulnerable people.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    First, thank you all, and I mean that. This is not easy 
work, and we appreciate your commitment and passion to get this 
right on behalf of vulnerable people globally. So, thank you 
for your commitment.
    And, I do acknowledge the fact that we now have more 
information than we had a year or 2 ago. My staff has given me 
a copy of what is on the U.N. Web page, those who have had 
allegations of sexual abuse. It looks like approximately, since 
beginning of 2015, 100. I am rounding. It could be 90, but 
somewhere in that range, specific episodes involving about the 
same number of victims.
    And of all those cases, I went through it quickly, only 
four have been penalized with any jail time.
    And I also point out what the chairman said, that these are 
the reported cases. We know that in some countries the 
seriousness of this issue, even though it is globally 
acknowledged of being the worst types of conduct, but in some 
governments and some countries, it is not considered to be a 
serious issue. And that means that the reporting is going to be 
spotty in some of the missions, and then the pressure that is 
on the command structure that has always been there.
    We saw that in the U.S. command structure when we were 
dealing with trafficking with military facilities located in 
other countries not participating. It took some while before we 
were able to change the culture. So we know that also is a 
problem.
    But my specific question to you is, it is one thing to get 
the Secretary General to withdraw the mission, if they do not 
do certain things, and I am all for that. The two sections that 
I see in U.N. Security Council Resolution 2272, which was just 
passed last month--so the chairman is absolutely right. This 
has been going on for a long, long time, and we finally got a 
U.N. Security Council resolution passed last month.
    Section 4 deals with gathering evidence, but most of that 
section deals with how you deal, rightly so, with victims and 
making sure the mission is well-trained, et cetera.
    And then Section 9 says, ``Urges all member states to take 
concrete steps aimed at preventing and combating impunity for 
sexual exploitation.''
    What are we doing? What is the United States doing? What is 
our leadership doing to make sure that those who have 
perpetrated these horrible acts are going to end up in jail?
    Ambassador Jacobson. Thank you for your question, Senator. 
It is a very important topic, and I think you have hit on 
something that is key here.
    We have talked a lot about what the U.N. is or is not 
doing, but the crux of the matter is what are the troop- and 
police-contributing countries doing to hold those who have 
perpetrated these horrendous crimes accountable.
    Based on the new reporting that we have of nationalities, 
we finally have a tool that allows us to go to those countries 
to see what they are doing, to urge them to do better.
    I think you have mentioned the four cases from last year 
that have gone through the whole process. There are at least 
another 20 where trials are occurring now, 20 trials in the 
Democratic Republic of Congo that that government is conducting 
against peacekeepers who have been accused of this. Also the 
Republic of South Africa has an onsite court-martial that is 
going on right now.
    So we are starting to see the actions taken that these 
countries know now that we know what they are doing. We know 
where the troops are coming from and that we are going to 
continue to shine a spotlight on these issues.
    We have sent in our missions to all of these countries just 
last month. This was a subject of high-level discussion with 
our Ambassadors who were all back here in Washington last month 
for the Chief of Mission conference.
    And we have been very clear with countries that we have 
gone out to that this is not just one sort of discussion, that 
we are going to be coming back regularly to determine what they 
are doing and holding their feet to the fire.
    Senator Cardin. So let me just underscore the point that 
the chairman made.
    I support U.N. peacekeeping. A lot of taxpayer money goes 
into U.N. peacekeeping. U.S. taxpayer money goes into it. I 
have a right as a Senator to know that Section 9 of the U.N. 
Security Council resolution is being enforced. I do not believe 
that the countries that have people who have perpetrated this, 
some of the countries, will follow through with this 
requirement of combating impunity and making sure that the 
perpetrators are held accountable and are serving prison time.
    So what are you going to do to provide me with information 
on how we are doing in every one of these countries that have 
perpetrators, as to how their system of justice is handling 
this acceptable to international standards?
    Ambassador Jacobson. Senator, it is very important that we 
continue to follow up with each of these countries in a 
repeated way. And we are doing that, and we are happy to 
provide you at any time with the results of our conversations 
with these countries.
    Senator Cardin. I want to be a little more proactive. I 
want to know what you plan to do, working with the Members of 
Congress, to keep us informed in a timely way as to how every 
country that sends peacekeepers to countries, the systems that 
they have employed to deal with those who have perpetrated 
these types of acts.
    First of all, I do not think we have enough. I think we 
have to be more proactive, the United States, in making sure 
those who are victimized have an opportunity to come forward. I 
think we have to be more direct with the political structure in 
the United Nations to make sure that every country's 
perpetrators are identified, so that we have, by country what 
is happening, and that we follow every particular case, 
because, quite frankly, I do not have confidence in their 
system to provide justice--international justice, not U.S. 
justice. And I think the more transparency you can put into 
this, the more important it is.
    So I want you to come back to me, this committee, and tell 
me what we are going to be receiving on a regular basis as to 
what is happening in every one of these countries in holding 
the perpetrators accountable, and how those trials are going 
forward, and whether, in fact, you can say with confidence that 
they have taken steps to prevent impunity for those who have 
committed these crimes.
    Will you do that?
    Ambassador Jacobson. Yes, Senator. Thank you.
    In fact, we have already started an exercise to do just 
this. There is a whole team of people behind me that are 
engaged in this every day.
    Essentially, what we want to do is combine the new 
transparency that we are getting from the U.N. with our own 
information that we get from our Embassies in the field. And we 
are preparing what we call a data call, that is actually an 
effort to go out to all of our Ambassadors in every country 
that hosts a peacekeeping mission to answer a series of 
questions based on our own observations, our own engagement, 
our own analysis, so that we can bring that information back to 
Washington and do exactly what you say to make a determination 
about whether the countries are doing the right thing or not.
    Senator Cardin. So Senator Corker and I, we need to talk a 
little more about this. But the Leahy rule, which is one that I 
support, indicates that we do not give aid to countries that do 
not adhere to basic international standards. And to me, holding 
those accountable for these atrocities--these types of 
activities would be contrary to international norm.
    So you are going to have to help us draft the appropriate 
type of oversight that will make sure that countries understand 
that they must act to prevent impunity for the perpetrators of 
these crimes. Understood?
    Ambassador Jacobson. Yes, Senator. Understood.
    Senator Cardin. Otherwise, we will draft it, and you may 
not like the way we draft it, so I will just warn you.
    Ambassador Jacobson. Understood. For example, in the 
current year's appropriations language, which does require the 
kind of certification that you are describing, we are looking 
forward to working with you to put that information together.
    Senator Cardin. Thank you.
    The Chairman. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman. I appreciate both 
you and the ranking member focusing on this.
    And I appreciate your compliments to the U.N. about 
transparency and finally making some moves. But putting in a 
year-end report on how many violations of human rights there 
were, in terms of rape against women, is not much transparency. 
And putting it on the Web site is pretty good, but a lot of 
these people who are victims would not know a Web site if they 
saw it, because they are in very remote parts of the world.
    I want to echo what Senator Cardin and Senator Corker have 
already said. I completely come from where they are coming 
from, in terms of us in the United States holding these people 
accountable in some way, if not at least by withholding funds 
or withholding funds until they comply with human rights.
    But here is the question. When Senator Corker and I went to 
Darfur, and Senator Coons and I went to the Congo, one of the 
many things I learned is that rape is a military tactic in 
Africa. It is not a violation of law. They teach it.
    The Chairman. That is right.
    Senator Isakson. When we went to Darfur, you did not see a 
man older than 12 or younger than 72, because they all had 
fled. Every woman had a baby, and I am talking about women who 
were 45 or 50 or 60 years old, or at least had weathered and 
endured so much pain they looked like they were that old, 
because the armies that came in to invade the towns raped the 
women to break up the family unit. The men leave. They take the 
son with them, or the son is conscripted into the army. It is 
an ongoing process.
    I mean, this is a big practice, and I am not just picking 
on Africa, but it is one place I know where it takes place so 
much.
    And unless there was a significant consequence of United 
States funds--this may address your organization, General, that 
you work on--we are just whistling in the wind, because these 
people are taught to do it.
    That was not a question. That was kind of a statement of 
awareness, which brings me to the question.
    General, is there any status of forces agreement that you 
know that is required or otherwise puts the burden of any 
country that supplies peacekeeping troops, any status of forces 
by which those peacekeeping troops will be held legally 
accountable in the event they commit a felony or a crime?
    General Rothstein. Thanks for the question. I am going to 
have to defer a little bit.
    I know there is a memorandum between the country and those 
countries that go to a certain mission and the country that 
they are working in, but I do not know the details of that, to 
be able to unwrap that further for you.
    So I do not know if I could turn it over to you, 
Ambassador?
    Ambassador Coleman. There is a memorandum of understanding, 
and there is a model memorandum of understanding that is 
negotiated every 3 years. That negotiation is coming up in 
2017, and strengthening the provisions to be very explicit and 
incredibly direct on sexual exploitation and abuse is one of my 
goals for that upcoming negotiation.
    Off of that model MOU, then there are specific MOUs that 
are negotiated between the troop-contributing country and U.N.
    Senator, what I can tell you is that this is not a problem 
at its core of lack of words on paper. This is a problem of 
political will. And it is a problem that has persisted for too 
long, where words on paper have been ignored. Words on paper 
have been disregarded.
    So even within the existing MOUs, the TCCs have not abided 
by that. And now, we will not tolerate that going forward.
    Senator Isakson. It underscores the point I want to make. 
As long as these troops, many of whom are in an army that was 
trained to use sexual violence as a tool of war, are deployed 
as a peacekeeper, if they realize they are exempt from any 
accountability for legal enforcement of the law in the country 
that they are in or anywhere else, then there is nothing to 
thwart or hold them back.
    However, if all of a sudden, because of initiatives the 
United States takes and other peace-loving countries take, we 
start holding people accountable, sentencing people, and people 
start serving punishment and time for rape or violence against 
women or whatever it might be, then the word will get out 
really fast.
    I mean, governments are great, and U.N. is the best, in 
making agreements, putting words on paper, but not the very 
best at putting those words to work in life.
    So my point is, if we can get to some sort of status of 
forces agreement between countries that supply U.N. troops and 
the U.N., or require an agreement between them and the country 
that they are deployed in, not a ``you must in 90 days 
establish a pattern or practice,'' a status of forces that says 
you will be liable and you will be punished for rape, for 
murder, or whatever capital felonies we want to include in 
there, and then do our best to aggressively make a couple 
people an example of it.
    Until that sort of thing is happening, that and withholding 
money are the two things that will get these guys' attention. 
We do not have anybody's attention right now, none whatsoever. 
And it is a frightening, frightening thing.
    And I think the GPOI, which is a division of the State 
Department, right?
    General Rothstein. Yes, sir. That is a division under my 
leadership.
    Senator Isakson. I would hope you would meet with 
Ambassador Froman, the Trade Representative for the United 
States, and start finding out whether or not there are some 
ways you could tie a country's compliance with fighting 
violence against women with the agreements we make with them in 
trade and commerce.
    Senator Coons and I opened the markets in South Africa for 
U.S. poultry, which they were being blocked from, by just 
enforcing the terms of the African Growth and Opportunity Act, 
which is a trade preference program between the two countries.
    People do not like rape and they do not like violence, but 
they sure do like to eat and they like to have commerce and 
they like to have trade. And if you predicate participating in 
those things with the United States with them being committed 
to ending violence against women, sexual violence as a 
practice, then we can start going a long way toward making 
something happen.
    That is the kind of leverage that really makes a 
difference. I am not belittling the annual report. I am not 
belittling the Web site. But I am telling you it is one thing 
to tell them your name is on the Web site; it is another thing 
to tell them that you cannot trade anymore.
    We have gotten countries in Africa to change their labor 
laws, in order to get into compliance with a goal. We had them 
start importing chickens from the United States in order to 
participate in trade through the AGOA agreement.
    It would seem like to me the State Department ought to try 
to find ways they can leverage what you are trying do in GPOI 
with some of the benefits we do on a daily basis with countries 
around the world who may provide peacekeepers, to see where you 
could tie the two together.
    Then all of a sudden, you have a big stick. And until you 
have a big stick in some of these countries, you ain't got 
nothing, pardon my English.
    So I would just suggest that would be one way to look at 
making an economic impact in return for better behavior by some 
of these host countries.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Before going to Senator Coons, you mentioned the political 
resistance. What kind of political resistance exists to keep 
soldiers from raping and abusing young girls and young boys? 
What kind of resistance do you face at this United Nations 
body?
    Ambassador Coleman. The resistance, Mr. Chairman, is over 
giving up any control or jurisdiction with respect to how 
issues of conduct and discipline are handled by TCCs 
themselves, by the troop-contributing countries. They have 
resisted our efforts to increase transparency on these issues 
out of fear that it would dishonor their troops, that it would 
dishonor peacekeeping.
    But what I can tell you, and what I say to them, is the 
dishonor is in not being transparent. The dishonor is in not 
prosecuting credible allegations of sexual exploitation and 
abuse to restore integrity to peacekeeping.
    And so I think what you are seeing in a positive way today 
is that there is no longer a monolithic resistance on these 
issues. I think there are troop-contributing countries that 
recognize that we face a crisis, and they recognize that simply 
circling the wagons and saying no to transparency and no to 
accountability is actually undermining peacekeeping, is 
undermining their own integrity.
    And so we have seen some progress recently on that front.
    The Chairman. I would just point out on the list, I know 
most members have seen the list, but a large number of the 
people that are violators are in the peacekeeping mission to 
make money. I will say this one more time. They are in the 
peacekeeping mission to make money.
    So, I am sorry, I cannot imagine how political resistance 
could keep us from enforcing against these countries that make 
money off doing this in this particular situation.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin, for both convening this hearing and for your 
persistence, your voice, your engagement, both of you, in 
fighting human trafficking, in fighting to end human slavery, 
and for the passionate engagement you bring to making sure that 
we do not just hold hearings on the deplorable conditions of 
the victims of sexual abuse and violence around the world but 
that we actually do something and get something done.
    In this particular instance today, we are talking about 
U.N. peacekeeping, and I want thank all of our witnesses for 
your testimony today of both panels, but especially Ambassador 
Coleman, who I know is working hard to try and institute real 
reforms in the U.N. to make it a more effective institution.
    I, just last week, went to U.N. headquarters in New York 
and met with the U.N. Under Secretary General for Peacekeeping 
Operations, Herve Ladsous, and was struck by the daunting 
challenges that peacekeepers face in the 21st century, by the 
number of countries where we have U.N. peacekeepers deployed, 
and by the possibilities of peacekeeping in terms of protecting 
fragile countries from falling into being failed states.
    I have strongly supported U.N. peacekeeping efforts in 
terms of appropriations support, and I view it as a cost-
effective and a positive way for us to not just keep peace but 
build peace.
    But the allegations that have been made not just in CAR 
but, Ambassador Coleman, as you have outlined, across dozens of 
different U.N. missions, across decades now, are simply 
shocking and unacceptable.
    And it is the United States that is footing most of the 
bill for most of the peacekeepers who are committing these 
atrocities against men and women and children. And if the very 
people who we are funding, training, equipping, supporting to 
be peacekeepers cannot be trusted to keep the peace and instead 
are committing crimes, then our support for U.N. peacekeeping 
is at risk of doing more harm than good.
    So I think we all agree we have to act, not just listen, 
not just take notes, but act to bring an end to sexual 
exploitation and abuse on a wide scale by U.N. peacekeepers.
    But simply providing peacekeepers and police does not 
fulfill a member state's obligation for the U.N. community of 
nations. It is the responsibility of member states to select 
and train and oversee appropriate units.
    And it is a struggle. As the chairman was just recognizing, 
many of the peacekeeping contributing countries are deploying 
peacekeepers, at least in the countries that I have traveled to 
with Senator Isakson, in part in order to get their troops 
paid. We are not attracting the best and most capable and most 
trained peacekeeping forces from around the world. We need to 
strengthen that.
    But before we make progress in that, I think we first have 
to institute meaningful accountability for nations and their 
peacekeepers who commit these kinds of crimes.
    So I look forward to exploring together ways this committee 
can help Ambassador Power and her team at the U.N. push for 
accountability that is meaningful and that can work together to 
end these crimes and to change peacekeepers from perpetrators 
of violence to protectors against violence.
    So if I could, Ambassador, just tell me what peacekeeper 
training methods have proven most effective so far? In fact, I 
would like all members of the panel to answer this question, if 
you could.
    What has been successful in terms of training to reduce 
what Senator Isakson I think correctly recognized is the 
training, whether intentional or by experience, of many of the 
troop-contributing countries that sexual violence is being used 
as a weapon of war? What is the training that is most effective 
at preventing that? And what can we do to strengthen that 
training in combination with accountability?
    Ambassador Coleman. Thank you. Well, I will allow General 
Rothstein to answer the specific training question, but if you 
would allow me just to say I want to reiterate a point that 
General Rothstein made earlier, which is this is not 
fundamentally about a training issue. I mean, there is no 
training that is going to guarantee that this problem will not 
occur. And when you look at the troops that have committed 
these abuses, some of them are among the best-trained troops in 
the world. And we know that they have explicit components of 
sexual exploitation and abuse prevention in their training 
methods.
    So ultimately, I come back to this as an accountability 
issue. There is no troop-contributing country that is immune 
from these types of abuses. It is how they deal with them and 
how they deal with it in a fulsome way that provides prevention 
going forward.
    Senator Coons. Before we turn to the training question, 
since we have you, Ambassador Coleman, on this, how effective 
is naming and shaming, since a number of the countries involved 
and implicated are close allies of ours who have troops that 
are trained and perform at the highest level?
    Then we will talk about training for those who lack 
operational excellence or efficiency.
    You are right. I think accountability matters first before 
training. How effective is the naming and shaming that we are 
advocating and that we may work together to strengthen?
    Ambassador Coleman. Well, thank you, Senator. And I like to 
avoid the phrase ``naming and shaming,'' because I see no shame 
in being named. The shame is in not following through with 
accountability.
    I think it really is a watershed for us to be able to 
identify the countries and then to be able to follow up 
directly with them, and not tolerate, not allow, the passivity 
that has existed, the sweeping under the carpet that has 
existed, frankly, the lack of accountability, to not allow it 
anymore.
    And Senator Isakson earlier talked about having a big 
stick, and Mr. Chairman, you have talked about money. The money 
is a big stick.
    And to be able say that you will not participate in 
peacekeeping any longer if you do not hold your troops 
accountable, if you do not report back to the Security Council, 
to the Secretary General, on what you are doing, if you do not 
prosecute these allegations in a full and sufficient way, that 
is ultimately the U.N.'s big stick, because the troop-
contributing countries will retain jurisdiction over their 
troops. They can either choose to have a full, appropriate 
response or not. And if they do not, then, frankly, they should 
no longer be part of peacekeeping.
    Senator Coons. I could not agree more. And as someone who 
has fought for the appropriations for peacekeeping, I am 
ashamed that we have been supporting peacekeepers who are doing 
horrible things. I want to make sure that, working together, we 
find a mechanism for accountability that is appropriate and 
that uses the fact that we are one of the principal 
contributors to peacekeeping support to ensure that this comes 
to an end.
    General, what sorts of engagements accountability are most 
effective for troops, whether training or prosecution or other?
    General Rothstein. So let me start by echoing what 
Ambassador Coleman said.
    My perspective is that training is absolutely necessary, 
but, make no mistake, I do not think it is sufficient. This is 
a problem that is much broader than training, and I believe we 
have to train. Through the training we provide through our 
security assistance, we think it is pretty good.
    And as far as best practices, what we work to do in our 
training, we start in the classroom. We move to scenarios. We 
move to including exercises. And we also focus very much on 
unit leadership. And we draw on the best of breed. We work very 
closely with the United Nations to find the best practices that 
work well. We make sure they understand their policy. But all 
that, no matter how well you do it, will not be sufficient.
    And so I would echo what Ambassador Coleman said. We have 
to focus on accountability.
    I also echo that we have to focus on how the country is 
following up. Just because you have a rotten individual or 
maybe even a rotten unit does not mean you necessarily want to 
disengage from the whole country, because as we remain focused 
on future outcomes, if that country is still going to deploy to 
U.N. peacekeeping, and we want to affect it for the better, 
then we probably want to be involved in their training and help 
make it better and not walk away and let it deteriorate.
    Those are the difficult decisions we have.
    Senator Coons. I am past my time. I just want to say I am 
looking forward to the second panel where we are going to hear, 
frankly, about U.N. suppression of whistleblowers and the real 
likelihood that these abuses are far more widespread than has 
so far been reported.
    Thank you for your testimony and your hard work on this 
topic.
    The Chairman. I would just say that on this issue there 
ought to be some way for us to figure out a way to surgically 
deal with this in a bipartisan manner that gets at this issue 
and not bring in a whole host of other issues, but we ought to 
be able to figure out a way to do it.
    Senator Flake is going to go ahead and ask Senator Shaheen 
to ask her questions.
    Senator Shaheen. Thank you all very much for your testimony 
today and for the work that you are doing on a very difficult 
issue.
    I want to follow up, Ambassador Coleman, with what you said 
about how important it is for the U.N. to actually hold 
countries accountable and to ask, has that ever been done? Do 
we have any examples where that has actually occurred and we 
have seen a change in behavior? And if that is the case, why 
have we not instituted a process whereby that is done on a 
regular basis?
    Ambassador Coleman. Thank you, Senator Shaheen.
    The U.N. has, I think, consistently followed up with the 
troop-contributing countries. When allegations have come to 
their attention, they have documented them. They have presented 
evidence that they have collected to the troop-contributing 
countries. They have followed up with the troop-contributing 
countries, and too often have been met with silence and, 
frankly, have acted with timidity in pushing back on the TCCs 
in demanding action.
    Senator Shaheen. That is the question that I am really 
asking. Can you cite a time in the past when the U.N. has 
demanded action, if the troop-contributing countries have 
failed to act, where we have denied them funding or continuing 
to contribute to peacekeeping efforts?
    Ambassador Coleman. I know of a number of examples, and 
some of them have happened, frankly, with U.S. urging.
    I can tell you that the Uruguayans in Haiti had sexual 
exploitation and abuse allegations. We knew about them at the 
time. There was not a Web site. This was not published. But we 
did learn about it. We engaged bilaterally. We also engaged at 
the U.N. And the Uruguayans did take action. They, in fact, 
held quite a public trial in Montevideo. They flew victims from 
Haiti to the trial.
    We know that the U.N. has engaged with a number of member 
states who have been responsive.
    When I was in MONUSCO last year, in the Democratic Republic 
of Congo, I learned about the South Africans and how one of 
their force intervention brigade had had a number of 
allegations. The U.N. brought it to the highest levels of 
attention in the South African Army, and they dealt with it. 
They had court martials.
    So it does happen. The issue is that it does not always 
happen. And too often, they simply get no response from a TCC. 
And when that happens, if we do not know about it or if another 
member state does not know about it, it falls through the 
cracks. It is totally unacceptable.
    Senator Shaheen. One of the issues that has been raised is 
that there is no person or agency that is responsible just for 
this. And is it the assessment of the panel that if we had a 
person in charge of just making sure that when there are 
allegations that troop-contributing countries are taking action 
to hold people responsible, would that help solve the problem?
    Ambassador Coleman. The independent CAR panel report, in 
excruciating detail, catalogued how information was diffused, 
fragmented, the bureaucratic response that so appalled us. In 
response, the U.N. has appointed Ms. Jane Holl Lute as a 
special envoy to deal with this issue of sexual exploitation 
and abuse.
    We welcome that appointment. We think that will certainly 
help provide a focal point within the U.N., so that there can 
never again be an excuse that the diffusion of responsibility 
allowed critical information to fall through the cracks and 
inaction to occur.
    So we absolutely welcome that.
    Senator Shaheen. And has she taken any action yet?
    Ambassador Coleman. She is just recently appointed. I know 
that she right now is traveling. She has been in the Central 
African Republic. She is in the Democratic Republic of Congo. 
And I think you will see action coming out of her office in 
short order.
    Senator Shaheen. Senator Cardin and Senator Corker both 
mentioned the Leahy legislation that would have the United 
States deny assistance. Is this something that has been done in 
particular instances where there have been documented cases of 
sexual exploitation and abuse? Have we actually seen the United 
States deny aid to those countries who have failed to take 
action?
    General Rothstein. Certainly, when we have credible 
evidence, those things have fallen under the Leahy laws. At the 
individual and unit level, when we have that information, that 
goes into our database that we work both through the mission at 
post in country when those individuals need it to potentially 
come up for security assistance with the United States, as well 
as the databases back here at State main.
    So I do not have a specific example, but if there is 
someone who has those credible allegations against them, they 
would go in that database, then we would not work with that 
unit or individual. And that process is in place and has been 
in place.
    Senator Shaheen. Well, I guess I am asking a broader 
question, and that is not just about the unit or individual but 
have we actually denied aid to countries that have contributed 
troops to peacekeeping missions who have failed to take action 
with those troops on allegations that have been shown to be 
true?
    General Rothstein. At the overall country level, we have 
not suspended, to my knowledge, an overall country.
    Senator Shaheen. Should we? Should we consider that kind of 
action, if we see repeated abuses and failure to take action?
    I would like each of you to respond to that, if you would.
    General Rothstein. Sure. I think we absolutely have to be 
ready to consider that. I think it is important we take that on 
a case-by-case basis.
    And as I said earlier, from my perspective, it is not so 
much that an incident happens. It is what the country does 
about it. And if the country lacks the will to try to follow 
through on that, because like I said earlier, incidents are 
going to happen. We are not to stop that. And so if the country 
takes reasonable action to follow through, then we probably 
ought to continue working with them.
    Senator Shaheen. Right. No. I am actually asking if they 
fail to take action.
    General Rothstein. Right.
    Senator Shaheen. Should we then look at suspending aid? Ms. 
Jacobson?
    Ambassador Jacobson. Thank you very much, Senator Shaheen. 
It is an important question, because we do have to think about 
the leverage that we have in our bilateral relations with 
countries, but I think we have to look at it in a holistic way.
    For example, most of the assistance that we provide to 
countries in Africa is in the health area. We are not in the 
business, as you know, of giving out freebies, because we want 
to feel good. We are in the business of providing assistance 
that meets critical U.S. national security needs.
    So you would have to weigh whether or not it makes sense to 
cut the assistance that we are providing to prevent the spread 
of pandemic disease in response to a country's inability to 
deal with sexual exploitation and abuse.
    In other areas, we are providing assistance directly to 
support the rule of law system and the development of 
capacities to enforce law. I would not want to cut that. I 
might want to sort of redirect how that is used.
    So it is a tool. It is not necessarily the tool of first 
resort. You have to look at what the assistance is directed to 
and then make the best determination. We are trying to do that 
now on a case-by-case basis through our engagement with the 
countries that have been named in the report, and that is an 
ongoing conversation that we will have in conjunction, of 
course, with all of you.
    Senator Shaheen. Ambassador Coleman?
    Ambassador Coleman. I would just say that if countries are 
not responding and not taking appropriate action, they should 
not be included in U.N. peacekeeping. And therefore, our 
contribution through our peacekeeping assessments should not be 
going to those countries.
    So I completely agree that U.S. engagement to strengthen 
these countries and make them better--improved capacity-
building, training, vetting, all of these things are great. But 
if there is a willful nonresponsiveness, they should not be 
part of peacekeeping, and our money should not be going to 
them.
    Senator Shaheen. Thank you.
    Thank you all very much.
    The Chairman. Thank you. Thank you very much.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Can I ask you, General, how we deal with the countries from 
which these soldiers come?
    On the one hand, we are talking about training of the 
soldiers. But does the country itself need training? Does their 
judicial system need training? Do we need to have a program 
that goes a step before these young men who are the soldiers 
and get to the adults who are in these countries, ensuring that 
they have the proper training so that they are taking the 
intervention steps necessary early on, or else those people are 
made accountable in their country? Those are the people who we 
have given the training to and have not acted.
    What is that program that we may or may not have in place, 
in order to ensure that the proper training back in the home 
country is adequate?
    General Rothstein. Senator, thank you for that. You raised, 
I think, what is both important and a very hard topic.
    So as a general rule, I think in our security assistance, 
in my experience, doing tactical training, training units, pre-
deployment training, is hard, but we are pretty good at it, as 
a country. Helping to build those institutions that backstop 
all of those tactical operational units is much more difficult. 
It is intellectually more difficult, I would tell you.
    And I will remark, I just came out of a year in Afghanistan 
where my job was to build the Afghan Air Force. So I was living 
on an Afghan airbase, trying to build their institutions, so I 
have lived a little bit of this myself, and it is hard work. 
And we do have some programs out there where we are trying to 
get after that.
    Within the State Department, we have a program called the 
Security Governance Initiative that is taking kind of a pilot 
level, looking at some of these countries, how we get after the 
institution-building that has to backstop this, the rule of 
law, some of those things.
    The Defense Department, I do not want to speak too much for 
them, because I certainly do not know, but I know they are also 
working some of the defense institution-building programs.
    So those are some of things we are trying to work, but it 
is difficult. It will take a long time, because change in our 
own bureaucracy, think how hard it is to make change happen, 
much less when you are trying to work through a foreign 
government through their cultural norms and values. So we are 
going to have to stay at this for little while.
    Senator Markey. Right. But I do not think you can solve the 
problem until those leaders in the justice system in the home 
countries have the proper training and gumption to enforce the 
laws. These are just young men on the prowl in a foreign 
country, and that is a dangerous thing without proper 
supervision back home.
    So let's just talk then to whatever, from your perspective, 
you would like to see put on the books. What programs would you 
like to see funded, short of defunding of programs, I guess, in 
those countries to teach them with a stick what we could 
potentially try to have them accept as a standard by the proper 
educational standards, the proper accountability standards, 
that are put in place without us having to punish the country?
    Ambassador Jacobson. Thank you very much, Senator, for that 
important question.
    I just wanted to include the thought that when we started 
our effort last month to go out to every country on the U.N. 
list, this is part of what we were asking them. First, we 
wanted to make sure that they understood the gravity of the 
allegations against them. Second, we wanted to impart on them 
the critical importance of actually following up on these. And 
third was to open a dialogue about what that country needs in 
terms of assistance to build up its own ability to investigate 
and respond.
    Now those conversations are at an early level. We only got 
the country-specific information last month. But we are going 
to build on that, and those conversations that our Ambassadors 
in the field are having now are going to feed back into our 
decisions about what kind of assistance we can provide, 
including in the rule of law area.
    But I would like to echo what my colleague Ambassador 
Coleman said, that while we have an open door and a willingness 
to engage in this, we should do it. Hopefully, we will be 
funded to provide that kind of assistance. Where countries are 
not willing, as you say, where they do not have the gumption, 
those countries should be barred from peacekeeping altogether.
    I believe that the resolution in the Security Council that 
our New York team fought so hard for last month, 2272, provides 
for that kind of banning from peacekeeping of those countries.
    Senator Markey. Okay. So, great.
    So let's talk, then, about the countries that you think are 
the worst. Give us the worst three countries, any one of you, 
so we can just get an idea of what we are talking about in 
prioritizing, not alphabetically but in terms of their complete 
and total lack of regard for these human rights violations.
    How would you list those countries? Can you give us the 
three worst?
    Ambassador Jacobson. I will refer to my colleague, 
Ambassador Coleman, who previously said it is really hard to 
say who is the worst and who is not the worst, because we are 
only now in a world where we can identify what countries are 
doing. Before, we did not have that information.
    Ambassador Coleman may disagree with me, but I----
    Senator Markey. We have countries here--Congo, Morocco, 
South Africa, Cameroon, Tanzania, Benin, Burundi, Nigeria, 
Togo, Rwanda, Ghana, Madagascar, Senegal, Canada, Germany, 
Slovakia, and Moldova.
    Do you want to pick three? And if you do not want to do put 
in Canada, you do not have to, or Slovakia, perhaps, of the 
shorter list that is left.
    You might want to just give us an idea of where this 
problem is, and then it will focus our attention much more 
precisely, laser-like, on what we should start with. We should 
probably start with the worst, and then we can all know what we 
have to have as a project in order to teach that country how 
much they should care about the issue.
    So would you like to try that, Ambassador?
    Ambassador Jacobson. What you are saying is very important. 
We need to identify where the problems are, and we are just 
starting to be able to do that.
    We are looking at a case like Democratic Republic of Congo. 
Obviously, the allegations against that particular contingent 
in MONUSCO are absolutely horrific. We think the Secretary 
General did the right thing by sending them home. They are not 
in peacekeeping anywhere else, nor should they be.
    But at the same time, as part of this new focus on these 
issues, we have seen now that the Democratic Republic of Congo 
has detained 20 of their peacekeepers and has started trials 
against them. So what we need to see before we can make a 
judgment is where do those trials go.
    Several of the countries that you mentioned have started 
judicial processes or, in some cases, actually finished 
judicial processes against those peacekeepers who were accused.
    So I would say it is too early to answer the question as to 
who is the worst because we haven't seen----
    Senator Markey. Well, you are saying Congo is there as a 
country that has already received special attention.
    Ambassador Jacobson. Yes.
    Senator Markey. Are there two other countries that you 
might want to tell us, if you are going to prioritize as a 
country, where we should be focusing that you think have been 
particularly bad in this area.
    Ambassador Coleman. Senator, maybe I can just comment, 
adding to what Ambassador Jacobson has already said.
    Congo, the DRC troops were repatriated because of a pattern 
of abuse. There were so many abuses that they were repatriated. 
In addition, the Republic of Congo, so not only the Democratic 
Republic of Congo but the Congo Brazzaville, the Republic of 
Congo, troops were also repatriated, again, because of a 
pattern of abuse.
    There are two different things going. One is a pattern of 
abuse, which speaks to a lack of command-and-control, and the 
other is a pattern of nonresponsiveness.
    On the pattern of abuse, I think as allegations become 
apparent, and we are tracking those allegations, it is easy to 
see when there has been a pattern or it is easier to see when 
there has been a pattern of abuse.
    In terms of nonresponsiveness, we are only now 
understanding which countries, because they are only recently 
being named, have allegations that have been pending for a long 
time, where there has been inadequate follow-up, inadequate 
accountability.
    And so in that process, we are also looking at which are 
those countries, and we do not have an answer for you, and we 
will get back to you with that answer.
    Senator Markey. Okay. I think it is important for us to 
know. When you are looking at--there are 100 nuclear power 
plants, and these 10 are the least safe. Well, we are going to 
focus on those.
    Ambassador Coleman. Yes.
    Senator Markey. Of course, right? So you have to narrow it 
down for us, because, as Senator Cardin is saying over here, we 
have an ability to begin to think creatively about all of the 
other relationships that we have with that country that can 
help to get the leaders who General Rothstein is saying may be 
reluctant right now to have their judicial system fully engaged 
to make sure that they are accountable, that these soldiers are 
accountable, that the military officers are accountable.
    Ambassador Coleman. And we look at it very much in the same 
way. That is the analysis that we are doing.
    Senator Markey. When will you have that list put together, 
as to who are the worst? Because that would be a great hearing 
to just have those worst offenders focused upon by the 
committee.
    Ambassador Coleman. When you are asking worst offenders, 
are you talking about highest incidence or nonresponsiveness?
    Senator Markey. Well, I suppose it is going be a 
combination.
    Ambassador Coleman. I think it is a combination.
    Senator Markey. Because the ones who are least responsive 
are the ones that are just turning a blind eye to the 
atrocities being committed. So I am sure it is one and the 
same, for the most part.
    Ambassador Coleman. Not necessarily, and that is exactly 
what we are trying to untangle.
    I mean, there are some countries that have had pretty 
significant allegations against them. As Ambassador Jacobson 
said, you now see the Democratic Republic of Congo putting 20 
people on trial, and so taking quite an aggressive action about 
that. It is very early stages of that. A lot of times it takes, 
in fact, quite a long time for these things to work their way 
through their judicial system.
    But the point that I want to emphasize is that having a 
weak judicial system, having a judicial process that perhaps 
does not meet our standards, our rule of law, is no excuse for 
not taking action. There is not one TCC that has deployed to a 
U.N. peacekeeping mission that does not have the ability to 
impose discipline on their troops.
    Senator Markey. No. And we are agreeing with you. And I 
think what Chairman Corker and Ranking Member Cardin are saying 
is we want to help you. There is no excuse, so just tell us who 
they are, what their excuses are, and then we will try to 
reinforce it, because there is the power of the purse, which 
the Congress does have, that I think can help to focus their 
attention on issues that we would like to see them work on.
    Ambassador Coleman. Thank you.
    Senator Markey. So we thank you very much.
    Senator Cardin. Mr. Chairman, if I could, just to clarify, 
and I think this has been a very helpful exchange.
    If I understand Ambassador Coleman, the United Nations can 
discipline a country that does not take appropriate steps by 
denying them the right to be a TCC, and that has been done, and 
the U.N. resolution speaks directly to that.
    The problem is if they are nonresponsive on impunity, there 
does not appear to be any direct remedy that the United Nations 
can take, other than the peer pressure or public information 
that is made available. And that is why I think we are looking 
for ways in which we can help in regards to getting action 
taken in regards to impunity.
    I just really wanted to clarify that, because I think they 
are the two points that you had raised before.
    The Chairman. I still say it is pretty unbelievable that we 
had a report in 2005 and you just now, not you, the entity we 
are trying to reform, the U.N., just now is publishing 
information.
    I think it speaks to, I am sorry, terrible leadership, lack 
of concern, unwillingness to deal with tough issues. And I do 
not think it speaks very favorably of the leadership at the 
U.N.
    Senator Kaine?
    Senator Kaine. Just really one line of question. In the 
Security Council resolution from last month, and I applaud the 
U.S. and the other nations for taking it seriously in the 
council, were there provisions dealing with redrafts of the 
MOUs with the TCCs? So should there be a standard feature of 
the memorandums of understanding that talk about training, 
recognizing training is not sufficient, but then what the 
accountability provisions would be in the kind of complaint?
    And if that is not part of the Security Council resolution, 
is that a profitable area that we should focus some time?
    Ambassador Coleman. Thank you, Senator. It is not part of 
the Security Council resolution because those decisions are not 
taken up in the Security Council. They are taken up in the 
General Assembly.
    And I mentioned earlier that the model MOU on which all the 
MOUs are based is renegotiated every several years. It will be 
up for review coming in 2017, and it is absolutely an area that 
is ripe for review, for making stronger and more explicit 
actions regarding sexual exploitation and abuse.
    Senator Kaine. As we work on maybe a bipartisan and focused 
strategy, strong demand that that MOU when it is renegotiated 
includes very significant provisions around this is something 
that I think we would all probably agree with.
    That is the only question I have. I appreciate it.
    The Chairman. Thank you.
    Do you want to follow up with this panel?
    Listen, we are all very upset. I think you are, too. I know 
that, typically, the administration does not particularly 
appreciate input from folks who sit on this side of the dais. I 
think, in this case, maybe they would welcome that. And I do 
look forward to working with members on both sides of aisle to 
figure out a way to put additional pressure on.
    I have to tell you, if I had to go to work every day and 
deal with the morass that exists at the United Nations, I think 
I would have to find other lines of work. So we thank you for 
attempting to deal with this morass that is so ineffective in 
so many things but particularly this.
    But we thank you for your efforts. We appreciate your 
efforts in trying to make sure that training is done on a 
better level. I appreciate the work you are doing at the State 
Department.
    We do want to assist you in penalizing countries that 
tolerate this and do not take the appropriate action. So we 
will be working with you very closely over the next several 
weeks.
    With that, we hope you have an opportunity to hear what the 
witnesses say on the next panel.
    We will hold the record open until the close of business 
Friday, if you could fairly promptly respond to questions that 
may come your way in writing.
    But we thank you for your service to our country and for 
being here today. Thank you.
    All right, so we are ready for the second panel. I know we 
have all been looking forward to your testimony. Most of us had 
a chance to read it last night or this morning.
    But we thank you all for being here, and I would like to 
recognize the witnesses, Dr. Miranda Brown, who has very 
powerful testimony, and Mr. Yeo.
    Did I pronounce that correctly? Yes. Thank you.
    And if you could just begin, Dr. Brown. And then, Mr. Yeo, 
if you would move on. We thank you both for being here and for 
the strength of your testimony here today. Thank you.

 STATEMENT OF MIRANDA BROWN, FORMER CHIEF OF AFRICA I SECTION, 
   OFFICE OF THE HIGH COMMISSIONER FOR HUMAN RIGHTS, UNITED 
                  NATIONS, GENEVA, SWITZERLAND

    Dr. Brown. Good afternoon. My name is Miranda Brown, and I 
am a former Australian diplomat.
    I joined the U.N. Office of the High Commissioner for Human 
Rights as the chief of the Eastern Southern Africa Section in 
December 2012 and occupied this position until December 2014.
    I have firsthand experience of monitoring and reporting 
human rights violations, including sexual abuse in a 
peacekeeping environment. I am going to give you an insider's 
perspective.
    From my experience in the field as the chief of the Eastern 
Southern Africa Section at OHCHR, I know that sexual abuse in 
peacekeeping missions is vastly underreported with bottlenecks 
for reporting at various stages. There are multiple barriers to 
reporting sexual abuse.
    Victims, many of whom are minors, know that there is a high 
likelihood that perpetrators will go unpunished, and fear 
discrimination, stigmatization, and retaliation if they report 
abuses.
    U.N. human rights officers in peacekeeping missions are 
usually the first responders and, hence, the internal reporters 
of the sexual abuse. They have their own fears, both about 
their physical safety, as well as their own job security. 
Overall, my view is that there are significant structural 
barriers to reporting sexual abuse by peacekeepers and U.N. 
personnel.
    The current setup, which relies primarily on U.N. human 
rights officers assuming the role of reporters of these 
violations, is inadequate, poses risk to the victims and staff, 
and is inherently biased against reporting. Such barriers are 
exacerbated by the wholly inadequate U.N. internal justice 
provisions or protections to whistleblowers.
    An example of these structural barriers is the case of Mr. 
Anders Kompass who disclosed sexual abuse by peacekeepers in 
the Central African Republic to the French authorities on the 
basis that the abuse was ongoing and the U.N. leadership in 
Bangui had not taken any steps to stop it over a period of many 
months or, if they had, these steps had been ineffective.
    The abuse continued until July 2014 when Mr. Kompass 
disclosed it to the French authorities. In April 2015, Mr. 
Kompass was suspended and placed under investigation for his 
disclosure.
    Shortly after, I blew the whistle to U.S. officials of the 
Permanent Mission to the United Nations in Geneva about the 
child sexual abuse in the Central African Republic and the 
apparent abuse of authority by the U.N. leadership in respect 
to the treatment of Mr. Kompass.
    Despite the fact that his suspension was deemed unlawful 
and an external panel established by the Secretary General 
exonerated him, Mr. Kompass remained under investigation until 
January 2016.
    These actions are having and will continue to have a 
chilling effect on the reporting of abuses in peacekeeping 
missions and have badly damaged the reputation and stature of 
the United Nations.
    While the U.N. Secretary General has announced measures for 
tackling sexual abuse in peacekeeping, these do not address the 
structural barriers to reporting, nor provide protections for 
U.N. staff who report wrongdoing by the institution. These 
measures do not address the U.N. internal accountability for 
abuse of authority.
    Ambassador Coleman has referred to the dishonor in not 
being transparent. This should apply to the U.N. leadership. 
Many of the measures that you have heard today should apply to 
the U.N. leadership, because 70 percent of the abuses appear to 
have been committed by U.N. or nonmilitary personnel.
    I recommend the committee consider the following.
    From the U.N. leadership, demand that all victims of sexual 
abuse by peacekeepers are offered immediate protection, which 
is not currently the case; recognize and address the barriers 
in reporting sexual abuse by peacekeepers and U.N. personnel; 
issue U.N. systemwide procedures and provide meaningful 
training to all U.N. staff working in peacekeeping missions on 
reporting sexual abuse by peacekeepers and other U.N. 
personnel; institute mandatory reporting of child sexual abuse 
to the appropriate authorities; recognize and address the 
inadequate whistleblower protections afforded to U.N. staff; 
institute zero tolerance for all U.N. officials whose conduct 
fails to meet the highest standards of ethics and integrity; 
and apologize to Mr. Kompass.
    From the U.S. State Department, demand the above reforms 
from the U.N.; demand zero tolerance for and call for the 
removal of all senior U.N. officials whose conduct fails to 
meet the higher standards; recognize that U.N. staff are not 
adequately protected from retaliation for reporting sexual and 
other abuses by peacekeepers or U.N. personnel; seek amendments 
to the U.N. frameworks for the administration of justice and 
whistleblower protections as detailed in my written statement; 
implement the provisions of the U.S. Consolidated 
Appropriations Act 2016 Section 7048 on whistleblower 
protections; and ensure that the next Secretary General is 
committed to eradicating sexual abuse in peacekeeping and is 
committed to protecting whistleblowers from retaliation.
    Finally, I would like to emphasize that my motive for 
testifying before you today and for blowing the whistle on the 
abuse of authority and the sexual abuse is to protect the U.N. 
as an institution and to uphold the principles on which it was 
founded.
    This has come at a considerable personal sacrifice. I lost 
my job at OHCHR, but I remain hopeful that the High 
Commissioner for Human Rights will reinstate me in my position. 
I hope that my testimony today will not impact on the High 
Commissioner's decision.
    Thank you.

    [Dr. Brown's prepared statement follows:]

Prepared Statement of Miranda Brown, Former Chief of Africa I Section, 
   Office of the High Commissioner for Human Rights, United Nations, 
                          Geneva, Switzerland

    Good afternoon Chairman Corker, Ranking Member Cardin, and members 
of the committee. Thank you for inviting me to address you today. My 
name is Miranda Brown. I am a dual Australian and British national, and 
a former Australian Government official. I joined the Australian 
Department of Foreign Affairs and Trade (DFAT) in 2001 and occupied a 
number of positions in the Department before being appointed as the 
Deputy Permanent Representative at the Australian Mission to the United 
Nations in Geneva, in January 2008. I hold a PhD in Science and a 
Masters of International Law.
    I must inform the Committee at the outset, that as a former 
Australian Government official, I am bound by certain confidentiality 
obligations towards the Australian Government. I have informed the 
Australian Foreign Minister about my presence at the hearing today.
    I have consistently maintained close relations with the U.S. 
Mission in Geneva, built on the foundations I formed during my time as 
the Deputy Permanent Representative of the Australian Mission to the 
U.N.. As you know, the U.S. and Australian Governments enjoy the 
closest of relations.
    I joined the U.N.'s Office of the High Commissioner for Human 
Rights (OHCHR), as the Chief of the East and Southern Africa (Africa I) 
section in December 2012, on leave of absence (Leave without Pay) from 
the Australian Government. I occupied this position until December 
2014. The East and Southern Africa section covers several countries 
with peacekeeping operations including in Sudan (UNAMID), South Sudan 
(UNMISS) and Somalia (AMISOM). I undertook regular missions to the 
field, including to Somalia and South Sudan, at the height of the 
crisis. I regularly acted as the Director (Chief) of the Africa Branch 
at OHCHR, which covers the entire continent. I have first-hand 
experience of monitoring and reporting human rights violations, 
including sexual abuse, in a peacekeeping environment.
    My testimony will focus on:


   my experience working at OHCHR with sexual abuse in peacekeeping 
        missions,

   the allegations of child sexual abuse in the Central African 
        Republic and Anders Kompass' disclosure of same, and

   my experience as a U.N. whistleblower reporting abuse of authority 
        by the U.N. leadership in response to the CAR allegations and 
        my attempts to support U.N. staff who report the abuses.


    From my experience in the field and as Chief of the Africa I 
section at OHCHR, I know that sexual abuse in peacekeeping missions 
(including U.N., hybrid and other missions) is vastly under-reported, 
with bottlenecks for reporting at various stages, inside and outside 
the U.N.. There are multiple barriers to reporting sexual abuse. 
Victims fear discrimination, stigmatization and retaliation if they 
report abuses by peacekeepers or civilian and military police (recent 
figures show a significant number of civilians are involved in the 
abuses). Victims also fear losing benefits (such as security for their 
families or humanitarian assistance) either through retaliation or 
removal of peacekeeping troops and they know that there is a high 
likelihood they will not receive justice and the perpetrators will go 
unpunished. The cost benefits do not add up in favour of reporting. 
Many of the victims are minors, who are unaccompanied, separated or 
orphaned through the conflict. U.N. human rights officers located in 
the human rights components of peacekeeping missions are usually the 
first responders, and hence the internal ``reporters'' of the sexual 
abuse. They have their own fears, both about their physical safety as 
well as their own job security.
    I would like to describe a typical situation in a U.N. peacekeeping 
mission. Most peacekeeping missions include a ``human rights 
component'' with a mandate to monitor and report on human rights 
violations in the country. The head of the human rights component, has 
a dual reporting responsibility, reporting to the head or deputy head 
of the peacekeeping mission, as well as to the High Commissioner for 
Human Rights.
    The majority of the human rights officers working in missions are 
relatively junior (at the P3 level, out of seven professional and 
higher ``non-political'' grades). The human rights officers are often 
deployed to remote peacekeeping sub-offices or camps where there is 
little institutional support and the living conditions are extremely 
harsh. The camps often house significant numbers of internally 
displaced persons (IDPs) in overcrowded conditions. Security within and 
outside the camps is often maintained by the peacekeepers. In such 
cases, the human rights officers are therefore dependent on the 
peacekeepers for their physical protection. The security situation 
outside of the camps may be so dire that the human rights officers are 
either unable to leave the camps, or have to be accompanied by the 
peacekeepers, in order to interview victims of human rights violations. 
This creates an inherent conflict of interest for human rights officers 
in terms of reporting misconduct and human rights violations by the 
peacekeepers. In South Sudan, one junior human rights officer reported 
to me her experience of working in one of the remote camps which was 
frequently cut-off by the conflict. She spent significant periods as 
the only human rights officer in the remote camp. The camp was 
frequently cut-off from the UNMISS headquarters in Juba. This human 
rights officer described the terrible human rights violations inflicted 
on the civilian population, which included torture, mass killings, 
sexual and gender-based violence, forced marriage and abortion. She 
provided timely reports of these violations to her supervisors, who 
reported the figures to headquarters in Geneva and New York on a 
regular basis. When I visited her in the camp, she also told me about 
the abuses committed by peacekeepers. She said she had been too scared 
to report them. The victims were IDPs. She worried that the alleged 
perpetrators might find out about her monitoring and reporting the 
allegations and she feared the victims might be subject to reprisal by 
the peacekeepers. She also feared for her own physical safety due to 
possible retaliation, directly or indirectly by the peacekeepers.
    Once U.N. human rights officers' reports of sexual or other abuses 
by peacekeepers reach the Head of the Human Rights Division in the 
Mission, he or she should immediately report to the Mission leadership 
for it to inform the highest level of the troop contributing government 
involved--this with the aim to preserve the victims' safety, as well as 
the human rights officers', through the swift removal of alleged 
perpetrators from the site. Because the reporting by human rights 
officials to the Mission leadership has often led to friction, human 
rights staff may prefer to rely on the alternative reporting line to 
OHCHR headquarters to report the peacekeeper abuses to the relevant 
authorities. The Mission leadership has frequently ignored the human 
rights officers' reports of sexual abuses by peacekeepers for political 
reasons--following-up on the reports can upset the troop contributing 
governments and lead to the withdrawal of troops that are needed by the 
mission. Thus human rights officers have often appeared as trouble-
makers to the Mission leadership.
    The U.N.'s Office of Internal Oversight Services (OIOS) expressed 
concern about the lack of assistance to victims of sexual abuse:


        Lastly, remedial assistance to victims is very weak. Very few 
        victims have been assisted due to lack of dedicated funding and 
        the slow enforcement process. Mapping of remedial assistance 
        services has not been undertaken in all missions and informal 
        immediate assistance has been required to partially bridge the 
        gap.


    The situation is further complicated by the different types of 
peacekeeping missions and reporting lines. For example in Somalia, the 
peacekeeping mission AMISOM is run by the African Union and in Darfur, 
Sudan the UNAMID mission is a hybrid U.N. and African Union mission.
    Newly recruited human rights officers in peacekeeping missions 
receive basic training on monitoring and reporting human rights 
violations, conducted by OHCHR. The duration of the training courses 
vary, but are typically of five days' duration. The OHCHR guidelines on 
monitoring and reporting, which are available on the OHCHR website, 
include general guidance on monitoring and reporting sexual abuse, but 
the guidance provided for reporting sexual abuse by peacekeepers or 
U.N. personnel is scant. The guidelines are frequently not implemented 
at the Mission level. The guidance on reporting child sexual abuse does 
not include mandatory reporting. Nor does it adequately address the 
issue of `informed consent'' when the victim is a child without parents 
or a guardian. The general training provided to human rights officers 
is focused primarily on monitoring and reporting for accountability 
purposes, and not on the U.N.'s protection mandate and the need for 
intervention to stop ongoing abuses.
    Additionally, most junior U.N. human rights officers hold temporary 
or ``fixed-term'' contracts of one or two years' duration. Their 
contracts can be non-renewed or they can be deployed to another duty 
station (location) with little notice. The temporary and insecure 
nature of their employment situation creates further conflicts of 
interests for U.N. human rights officers and other U.N. staff, when 
determining whether to report wrongdoing by U.N. peacekeepers or U.N. 
personnel. A U.N. human rights officer who suffers adverse employment 
consequences and loses his or her job after exposing sexual abuse or 
other wrongdoing, by peacekeepers or U.N. personnel, is unlikely to be 
compensated or reinstated for two reasons. Firstly, the tribunals that 
rule on such appeals have long been reluctant to intrude upon the U.N. 
Secretary General's prerogatives in contract renewal. Secondly, the 
U.N. Tribunal statutes grant the Secretary General discretion on 
whether to reinstate the staff member or provide compensation even 
after the dispute tribunal has adjudicated the case and found the 
impugned adverse employment action irregular. In practice U.N. staff 
members are rarely reinstated and if not, only a small amount of 
compensation is paid.
    Overall, my view is that there are significant structural barriers 
to reporting sexual abuse by peacekeepers and U.N. personnel. The 
current setup, which relies primarily on U.N. human rights officers 
assuming the role of reporters of these violations, is inadequate, 
poses risks to victims and staff and is inherently biased against 
reporting. Such barriers are exacerbated by the wholly inadequate U.N. 
internal justice system provision of protection to whistleblowers.
    It is against this backdrop, that I would now like to describe to 
you the events that transpired after the disclosure by Mr.Anders 
Kompass (Director of the Field Operations and Technical Cooperation 
Division at OHCHR) to the French authorities, of the MINUSCA report 
Sexual Abuse on Children by International Armed Forces in the M'Poko 
IDP camp in Bangui, Central African Republic. MINUSCA is a 
multidimensional U.N. peacekeeping operation in the CAR, established by 
the U.N. Security Council on 10 April 2014.
    I was the Acting Director of the Africa Branch at OHCHR in early 
August 2014 during the period shortly after the MINUSCA report came to 
OHCHR's attention in Geneva. Mr. Kompass was my direct supervisor at 
the time. Emails document my involvement and I was the key contact 
between OHCHR and MINUSCA during the period immediately following the 
disclosure. I supported Mr. Kompass' decision to disclose the 
allegations of child sexual abuse to the French authorities. The abuse 
documented in the MINUSCA report was horrific, ongoing and no attempt 
had been made to stop it. Young boys were allegedly being subjected to 
rape and other forms of sexual abuse by peacekeepers from France, 
Equatorial Guinea and Chad, in exchange for food. The abuse appears to 
have continued until Mr. Kompass disclosed the MINUSCA report to the 
French authorities in July 2014. Mr. Kompass made his report discreetly 
yet openly, and the French Government expressed its thanks in writing 
through officially registered correspondence. French law enforcement 
received the disclosure immediately and a team of investigators was 
dispatched to Bangui.
    Nine months later, I learned that [the new High Commissioner for 
Human Rights, Mr. Zeid Ra'ad Al Hussein had ordered that Mr. Kompass be 
suspended and the U.N. leadership had decided to place Mr. Kompass 
under investigation by OIOS, for his disclosure of the MINUSCA report 
to the French authorities. Mr. Kompass was escorted out of his office 
on 17 April 2015.
    I was appalled by what appeared to be the deliberate targeting of a 
U.N. staff member, who had taken immediate action to stop child sexual 
abuse by peacekeepers, and was simply doing his job. Mr. Kompass was my 
supervisor and I had supported his decision to disclose the MINSUCA 
report to the French government, on the basis that the abuse was 
ongoing and the U.N. leadership in Bangui had not taken any steps to 
stop it over a period of many months, or if they had, these steps had 
been ineffective. I decided to blow the whistle to the U.S. Government 
about my concerns of the apparent abuse of authority by the U.N. 
leadership in respect of the treatment of Mr. Kompass. On 22 April 
2015, I wrote to U.S. officials at the U.S. Permanent Mission to the 
United Nations in Geneva, outlining my concerns and providing relevant 
documents, including the MINUSCA report. I marked these documents as 
``strictly confidential''.
    In the absence of appropriate guidelines for situations of ongoing 
child sexual abuse, Mr. Kompass, whose terms of reference allow him 
reasonable flexibility in acting to address immediate abuses, followed 
the best practice established in many U.N. member states, including 
Australia, Canada, the U.S., most European Union member states, Brazil 
and South Africa, which have implemented specific mandatory disclosure 
and reporting requirements for child abuse. In these countries, there 
is a legal obligation placed on certain citizens, usually professionals 
working with children, or on issues relating to children, civil 
servants and other categories to report without delay child abuse, 
including child sexual abuse, to the authorities or law enforcement 
agencies. In some countries, these laws extend to all citizens and are 
not limited to professionals working with children or civil servants. 
The disclosure must include the full name of the child suspected of 
being abused, or at risk of abuse, and as much information as possible 
about the child and suspected abusers. In some countries, the 
professional may report the suspected abuse to the hierarchy in his or 
her institution, but in others there is a requirement for the 
professional to report directly to the relevant authorities (usually 
law enforcement agencies), thereby bypassing the hierarchy. This is to 
avoid a situation where the professional is placed under pressure by 
his or her hierarchy not to disclose the information or to redact it. 
The U.S. is a world leader on mandatory reporting of child sexual 
abuse, with laws enacted in all states.
    Furthermore, although the OHCHR guidelines do not adequately cover 
child abuse, the U.N. overall has a clear position on reporting child 
abuse, as outlined in the guidance and model legislation issued by the 
U.N. Office of Drugs and Crime (UNODC), in conjunction with UNICEF, as 
well as the World Health Organization (WHO) reporting requirements. The 
U.N.'s own guidance establishes the duty to report child abuse and 
spells out that this duty overrides any obligations to keep reports 
confidential.
    In early May 2015, the U.N. Dispute Tribunal ruled that his 
suspension was unlawful and Mr Kompass was reinstated in his position 
as Director of the Field Operations and Technical Cooperation Division. 
However, Mr. Kompass remained under investigation by OIOS.
    A U.S.-based non-governmental organization (AIDS-Free World), 
obtained documents showing the improper collusion among U.N. oversight 
offices and top U.N. officials, and in response to public protest about 
child sexual abuse in the CAR and the treatment of Mr. Kompass, at the 
end of June 2015, the Secretary General was obliged to establish an 
external independent panel to review the situation.
    In the fall of 2015, the panel began to inquire about the legality, 
rationale and best practice guidelines for reporting child abuse. 
Australian Professor Ben Matthews, a world expert on mandatory 
reporting, provided a submission to the External CAR Panel.
    The External CAR Panel returned its report in December 2015. The 
panel found gross institutional failure and abuse of authority in 
relation to the reporting of sexual abuse of children and to the 
investigation of Kompass (who was exonerated). Still, the internal 
misconduct investigation of Mr. Kompass--by the same OIOS office whose 
chief had been found guilty by the CAR Panel of abusing her authority 
in investigating Mr. Kompass--continued.
    Between October 2015 and January 2016, I wrote a series of letters 
and emails to the U.N. Secretary General and other senior U.N. 
officials calling for the U.N. leadership to desist from investigating 
Mr Kompass. Mr. Kompass remained under investigation until 8 January 
2016, the date on which Mr. Kompass was concluded with his 
exoneration.The Kompass case highlights one of the key problems with 
the U.N.'s narrow definition of a U.N. whistleblower, which only covers 
staff who report misconduct by other staff members. The U.N. leadership 
has made a great issue of the fact that Mr. Kompass reported misconduct 
by national troops, not U.N. peacekeepers. He is therefore not 
protected by the U.N. anti-retaliation policy (SGB/2005/21).
    The U.N. leadership, through the U.N. Spokesperson says the fact 
that OIOS investigation failed to substantiate allegations made against 
Mr. Kompass shows the U.N. system of justice works. However, were it 
not for the findings of the External CAR panel, convened only because 
information about the improper actions of the OIOS and U.N. senior 
officials leaked to the public, it is clear that the OIOS investigation 
might well have found otherwise. The leaked e-mails among U.N. 
oversight officials showed quite clearly that ``the fix was in,'' and 
rather than proceed with such a tainted exercise, the then Director of 
the Investigations division at OIOS recused himself.
    There have been serious consequences as a result of the U.N.'s 
actions. Firstly, Mr. Kompass has received neither an apology, nor any 
sign of appreciation for what he did and what the U.N. subjected him to 
as a result. Secondly, I am convinced that the very public pillorying 
of Mr. Kompass is having and will continue to have a serious chilling 
effect on the reporting of abuses in peacekeeping missions. Thirdly, 
the reputation and stature of the United Nations, as an international 
organization that promotes integrity in governance, peacebuilding and 
human rights, are badly damaged.
    While the U.N. Secretary General has announced an intention to 
implement the recommendations made by the External CAR Panel and has 
announced measures for tackling sexual abuse in peacekeeping, these do 
not address the structural barriers to reporting, nor provide 
protections for U.N. staff who report wrongdoing by the institution. 
These measures do not address the U.N. internal accountability for 
abuse of authority towards staff members.
    Following a visit to the Central African Republic, recently 
appointed U.N. Special Coordinator on Sexual Exploitation and Abuse Ms 
Jane Holl Lute, stated that ``we have to create an environment where 
the victims ``can come forward when these behaviours have occurred,'' 
``levy allegations without fear,'' and see that ``justice is done.''
    Creating an environment where victims can come forward and report 
sexual abuse without fear is the first step. Where children or minors 
are involved, the U.N. must implement its protection mandate and take 
immediate steps to stop the abuse. Currently neither the victims nor 
the reporters are properly protected and there is little accountability 
for retaliation against either of them. This is a single point of 
failure, which could be fixed. Securing justice for the victims and 
holding the perpetrators to account is a more complex challenge as it 
necessarily involves changes to existing peacekeeping structures, the 
agreement of troop contributing countries and other Member States.
    There is no Freedom of Information Access at the U.N. and as such 
the Member States must rely on the U.N. leadership to uphold the 
highest standards of conduct and management and on whistleblowers to 
report wrongdoing, including sexual abuse, and abuses of authority. The 
U.N. Special Rapporteur on Freedom of Expression, David Kaye (an 
American Professor of Law at the University of California, Irvine), 
stated in his report to the U.N. General Assembly in September 2015:


        Basic structural gaps in international organizations leave 
        whistle-blowers at risk in ways that those who report 
        wrongdoing in national systems may avoid. In particular, nearly 
        all international organizations are opaque to the public, which 
        has limited access to information, and few have effective 
        policies on access to information. As bureaucratically 
        dominated organizations, they avoid the strict scrutinization 
        by the press that is often found in national contexts, and they 
        are naturally isolated from direct contact with members of the 
        public or the press.


    They are, moreover, subject to reputational demands in order to 
maintain financial and political support of Governments. Furthermore, 
persons who report wrongdoing have limited access to independent 
systems of justice. They generally lack access to national courts when 
complaining about retaliation, and the human rights bodies are unlikely 
to apply protection in the face of retaliation. The immunities enjoyed 
by international organizations in national and other external 
jurisdictions result in minimal legal pressure on the organizations to 
respond effectively to allegations of wrongdoing. The mechanisms 
themselves generally face substantial problems of independence because 
of those structural barriers.
    The track record for whistle-blowers in the United Nations system 
reinforces the difficulties. Very few whistle-blower complaints are 
fully investigated. Between 2006 and 2014, only 15 cases of a total of 
403 ``inquiries'' sent to the Ethics Office of the United Nations were 
found to meet prima facie standards for retaliation, while only 4 were 
established as retaliatory cases. The low numbers, in a system of more 
than 40,000 employees, are likely to send a message to employees that 
the reporting system will not provide effective protection or 
redress.'' The Special Rapporteur concluded by saying:


        Lastly, those who identify wrongdoing--especially evidence of 
        serious legal violations and human rights abuses, such as 
        sexual and gender-based violence--should be protected from 
        retaliation when they make public disclosures to the media, 
        civil society or Governments. To be sure, disclosures should 
        respect the rights and reputations of others, but in the 
        absence of effective internal systems, external disclosure 
        provides a necessary safety valve to promote accountability and 
        ensure that the public has information about serious 
        wrongdoing.


    The U.N.'s whistleblower protection policy is over ten years' old 
(issued in 2005). On 8 April 2015, a coalition of U.N. whistleblowers 
expressed their concerns about the U.N.'s whistleblower protections in 
an open letter sent to the U.N. Secretary General and U.N. agency 
heads. There have been significant advances in whistleblower protection 
policy and legislation around the world over the past decade, notably 
in the U.S.. The U.N.'s policy must be updated to reflect these 
developments.
    Finally, I would like to emphasize that my motive for testifying 
before you today and for blowing the whistle on the abuse of authority 
in relation to the Kompass case, and prior to this in another U.N. 
organization, is to protect the U.N. as an institution and uphold the 
principles on which it was founded. This has come at a considerable 
personal sacrifice. I lost my job at OHCHR. I remain hopeful that the 
High Commissioner for Human Rights Zeid Ra'ad Al Hussein will reinstate 
me in my position at OHCHR in Geneva. I hope that my testimony today, 
which has not held back on what I witnessed, will not impact on the 
High Commissioner's decision.
    In terms of reforms and recommendations, I have limited these to 
issues on which I have first-hand knowledge as a senior U.N. human 
rights officer working with sexual abuse in a peacekeeping context and 
as a U.N. whistleblower. I respectfully request the Committee consider 
demanding the following:


From the U.N. leadership:

 1. Emphasize the U.N.'s protection mandate and demand that all victims 
        of sexual abuse by peacekeepers are afforded immediate 
        protection. Secure a public commitment from the U.N. leadership 
        that when child sexual abuse is encountered, the U.N. will take 
        immediate action to stop it. Monitoring and reporting for 
        accountability purposes is extremely important, but immediate 
        protection must come first.

 2. Recognize that there are significant and wide-ranging barriers in 
        reporting sexual abuse by peacekeepers and U.N. personnel. 
        These must be clearly identified and addressed. Peacekeepers 
        are often responsible for the physical protection of their 
        victims (many of whom are IDPs) and for the U.N. staff who 
        report the abuses. An independent external review should be 
        commissioned to provide recommendations on addressing the 
        serious conflicts of interests inherent in the current 
        reporting of sexual abuse by peacekeepers and U.N. personnel.

 3. Issue U.N. system-wide procedures and provide meaningful training 
        to all U.N. staff working in peacekeeping missions on reporting 
        sexual abuse by peacekeepers and other U.N. personnel. 
        Institute mandatory reporting of child sexual abuse to the 
        appropriate authorities.

 4. Recognise that protections afforded to U.N. staff who report 
        externally sexual and other abuses by peacekeepers and other 
        U.N. personnel, are presently inadequate and that changes to 
        existing accountability structures are urgently needed. The 
        Secretary General has referred to the peacekeeper abuses as a 
        ``scourge'' and has recognized that the U.N. has failed to 
        protect vulnerable people, including children, from sexual 
        abuse. He should now recognize that the U.N. has also failed to 
        protect its own staff members who reported and exposed these 
        failures.

 5. Institute zero tolerance for all senior U.N. officials whose 
        conduct fails to meet the highest standards of ethics and 
        integrity--conduct that amounts to actionable abuse of 
        authority is set too high. The U.N. leadership must itself 
        uphold the highest standards. Recent failures to hold U.N. 
        senior officials to account have eroded trust in the U.N. 
        leadership. This negatively affects the U.N.'s image, 
        reputation and ability to deliver on its important mandate and 
        through the impunity it creates, further contributes to a 
        climate of fear among staff members that reduces reporting of 
        abuses.

 6. Apologize to Mr. Kompass.


From the U.S. State Department:

 1. Public confidence in the U.N. and hence its ability to deliver on 
        its mandate has been seriously eroded by the peacekeeper sexual 
        abuses and by the Kompass case. Demand zero tolerance for all 
        senior U.N. officials whose conduct fails to meet the highest 
        standards, irrespective of their role, function or nationality. 
        Where the State Department has reason to believe a U.N. 
        official has not upheld the highest standards, or public 
        confidence in that U.N. official has been eroded, call for the 
        official's removal from office. This is to protect the U.N. as 
        an institution.

 2. Publicly recognize the serious flaws in the protections from 
        retaliation afforded to U.N. staff who report sexual and other 
        abuses by peacekeepers or U.N. personnel. As the Kompass and 
        other cases show, existing internal accountability structures 
        lack independence and afford little protection from 
        retaliation. Until such time as U.N. whistleblower protections 
        are improved, the State Department should exercise its good 
        offices in selected high profile whistleblower cases, such as 
        the Kompass case, to limit reputational damage to the U.N.

 3. Seek amendments to the U.N. frameworks for the Administration of 
        Justice (U.N. General Assembly resolutions) and whistleblower 
        protections (Secretary General's Bulletin SGB/2005/21) to:


   <diamond> Amend the narrow definition of a ``protected activity'' 
            and hence the definition of a U.N. whistleblower to ensure 
            that U.N. staff, such as Mr. Kompass who reported 
            allegations of child sexual abuse by foreign peacekeepers 
            are not excluded. Reporting of all violations of human 
            rights must be included under the definition of protected 
            activity, regardless of who commits them.

   <diamond> To expand the U.N. whistleblowers' access to justice, 
            ensure that they have access to independent external 
            arbitration, consistent with the provisions of the U.S. 
            Consolidated Appropriations Act 2016, Section 7048; such 
            access does not currently exist.

   <diamond> Institute special protection measures for whistleblowers 
            who report allegations of wrongdoing by the U.N. 
            leadership. Whistleblowers may be vulnerable to retaliation 
            across the U.N. system (not just in the organization where 
            they blew the whistle) and for the duration of their 
            career. Because of the political linkages at the top of the 
            organizations, U.N. whistleblowers can be subject to 
            retaliation, in other parts of the U.N. system, even many 
            years later. Moreover the nature of immunity of 
            international organizations can breed impunity at the 
            highest levels.

   <diamond> Best practice in relation to burdens of proof. Currently, 
            where there are adverse employment decisions taken against 
            a U.N. whistleblower, the onus is on the whistleblower 
            demonstrating retaliation, as opposed to the best practice 
            of placing the onus on the employer to prove that no 
            retaliation occurred.


 4. Implement the provisions of the U.S. Consolidated Appropriations 
        Act 2016, Section 7048, on whistleblower protections.

 5. Ensure that the next U.N. Secretary General is committed to 
        eradicating sexual abuse in peacekeeping and is committed to 
        protecting whistleblowers from retaliation. This is especially 
        important given the lack of Freedom of Information Access at 
        the U.N..


    I thank this Committee for its ongoing engagement and look forward 
to working with the Committee and U.S. Government to see that 
meaningful and effective reforms are instituted.


 STATEMENT OF PETER YEO, PRESIDENT, BETTER WORLD CAMPAIGN, AND 
  VICE PRESIDENT, PUBLIC POLICY AND ADVOCACY, UNITED NATIONS 
                  FOUNDATION, WASHINGTON, D.C.

    Mr. Yeo. Thank you, Mr. Chairman and Ranking Member Cardin 
and the other members of the committee, for inviting me to 
appear before the committee today.
    I serve as president of the Better World Campaign, which 
works to promote a stronger relationship between the U.S. and 
the United Nations.
    As the previous witnesses have made clear, there is a 
cancer within the United Nations, and it must be cut out. The 
scourge of sexual exploitation and abuse by U.N. peacekeepers 
continues. The victims of this abuse are real, and the 
consequences are as well.
    Just 2 weeks ago, a 16-year-old girl was allegedly raped by 
a peacekeeper from DR Congo in a hotel room. What a sickening 
violation not only of an innocent girl but the trust placed in 
that peacekeeper by the United Nations and the military that 
sent him to help the people of the Central African Republic.
    Hearing the horrendous reports emanating from CAR, it would 
be natural to want to withdraw all U.N. peacekeepers before 
more damage can be done, but this basic instinct to protect 
needs to be balanced against the good the peacekeepers continue 
to do there.
    The U.N. mission has played a critical role in the conduct 
of free, democratic elections, which have led to the swearing-
in of a new legitimate president committed to rebuilding the 
war-torn country and to successful legislative elections, which 
just concluded a few weeks ago.
    Since 2014, peacekeepers have trained nearly 200,000 
children on avoidance of unexploded ordnance, a macabre gift 
left by the warring factions in CAR. As a result, Human Rights 
Watch issued a report, which indicated that the U.N. 
peacekeepers in CAR will be critical to disarming rebel 
factions and reestablishing security.
    So the question is, how do we support the vital work being 
done by U.N. peacekeepers in CAR and elsewhere and, at the same 
time, implement meaningful steps to stop sexual exploitation 
and abuse by peacekeepers and ensure justice for victims?
    If the U.N. is to root out bad actors, whether they hail 
from France or the developing world militaries that are the 
backbone of U.N. peacekeeping, it must show that new policies 
just announced by the U.N. and endorsed by the Security Council 
will be implemented with unshakable resolve.
    The name-and-shame list issued by the Secretary General of 
countries charged with sexual exploitation and abuse is 
groundbreaking. For the first time in the history of U.N. 
peacekeeping, transparency is now, at long last, at the core of 
the U.N.'s response to SCA.
    Secretary General Ban has suspended payments to troop-
contributing countries whenever there are credible allegations 
against one of its troops. He has repatriated entire military 
contingents to their home countries where there was evidence of 
widespread and systemic abuse--again, a first. Though long 
overdue, these actions are the right course.
    Even so, and even though they are endorsed by the Security 
Council, these measures will mean nothing unless they are 
actively and consistently enforced, a posture that will anger 
some troop-contributing countries. Sending home offending 
contingents is not only a black eye on the global stage but a 
loss in important compensation to that contributing nation.
    And for those countries where there is evidence of 
widespread or systematic sexual exploitation and abuse, they 
should be blocked from joining new missions. The U.N. must say 
no on deployment until demonstrable progress is made.
    The Secretary General has the power to do that, and he must 
wield it, and the Security Council must back him up.
    There are certain to be consequences. One year from now, 
for example, the Security Council may choose to intervene in a 
country facing a crisis. With lives on the line, the 
international community will rightly look to the U.N. to 
quickly deploy peacekeepers. Only a few countries will offer 
troops. And of those, some will have a checkered human rights 
record.
    While there will be justifiable demands to deploy a robust 
force, the U.N. must hold firm and reject any nation with a 
record of widespread or systematic abuse.
    As it stands, there is a severe shortage of well-trained 
troops for a growing number of increasingly complex and 
dangerous missions. The U.N. is challenged to recruit the best 
trained and equipped troops.
    If peacekeeping is ultimately to free itself from the stain 
of sexual abuse, the responsibility must not sit with the U.N. 
alone. Other member states need to answer the call.
    Last year's peacekeeping summit resulted in pledges of 
40,000 more peacekeepers from a diverse group of countries. 
Ensuring these pledges actually materialize and that troops 
deployed to hardship posts such as CAR and Mali will be 
instrumental in backing up the U.N.'s denial of certain 
countries over their records of sexual exploitation and abuse.
    In conclusion, it is absolutely shameful that it took the 
high profile sexual exploitation and abuse cases in CAR and 
elsewhere to grab the world's attention to this crisis and to 
pull open the curtain to the culture of impunity which exists 
in U.N. peacekeeping.
    The U.N. and members of the Security Council are now seized 
with developing and implementing solutions to this crisis. We 
have to make it right, because we have no other choice.
    I would be happy to answer any questions you might have. 
Thank you.

    [Mr. Yeo's prepared statement follows:]

Prepared Statement of Peter Yeo, President, Better World Campaign, and 
     Vice President for Public Policy and Advocacy, United Nations 
                       Foundation, Washington, DC

    Thank you, Mr. Chairman and Ranking Member Cardin for inviting me 
to appear before the committee today.
    I serve as President of the Better World Campaign, which works to 
promote a stronger relationship between the U.S. and the U.N.
    As the previous witnesses have made clear, there is a cancer within 
the United Nations--and it must be cut out. The scourge of sexual 
exploitation and abuse by UN Peacekeepers continues, despite Secretary 
General Ban's commitment to a zero-tolerance policy and repeated 
promises from U.N. Member States to take meaningful action.
    The victims of this abuse are real. And the consequences are as 
well. Just two weeks ago, a 16-year old girl was allegedly raped by a 
peacekeeper from DR Congo in a hotel room.
    What a sickening violation not only of an innocent girl, but the 
trust placed in that peacekeeper by the U.N. and the military that sent 
him to help the people of the Central African Republic.
    Hearing the horrendous reports emanating from CAR, it would be 
natural to want to withdraw all U.N. peacekeepers before more damage 
can be done. But this basic instinct to protect needs to be balanced 
against the good that peacekeepers continue to do there.
    The U.N. mission has played a critical role in the conduct of free, 
democratic elections, which has led to the swearing-in of a new 
legitimate President committed to rebuilding the war-torn country, and 
to successful legislative elections which just concluded a few weeks 
ago.
    Since 2014, peacekeepers have trained nearly 200,000 children on 
avoidance of unexploded ordinance--a macabre gift left by warring 
factions in CAR.
    As a result, Human Rights Watch issued a report which indicated 
that the more than 12,000 U.N. Peacekeepers in CAR will be critical to 
disarming rebel factions and re-establishing security.
    So the question is: how do we support the vital work being done by 
U.N. peacekeepers in CAR and elsewhere, and at the same time, implement 
meaningful steps to stop sexual exploitation and abuse by peacekeepers 
and ensure justice for victims like the 16 year old girl in the hotel 
room?
    If the U.N. is to root out the bad actors--whether they hail from 
France or the developing world militaries that are backbone of U.N. 
peacekeeping--it must show that the new policies just announced by the 
U.N. and endorsed by the Security Council will be implemented with 
unshakable resolve.
    The ``name and shame'' list issued by the Secretary-General of 
countries charged with sexual exploitation and abuse is groundbreaking. 
For the first time in the history of U.N. peacekeeping, transparency is 
now, at last, at the core of the U.N.'s response to SEA. Secretary-
General Ban has suspended payments to troop-contributing countries 
wherever there is a credible allegation against one of its troops. He 
has repatriated entire military contingents to their home countries 
where there was evidence of widespread and systematic abuse--again, a 
first. Though long overdue, these actions are the right course.
    Even so, and even though they are endorsed by the Security Council, 
these measures will mean nothing unless they are actively and 
consistently enforced--a posture which will anger some troop 
contributing countries. Sending home offending contingents is not only 
a black eye on the global stage, but a loss in important compensation 
to that contributing nation.
    And for those countries where there is evidence of widespread or 
systemic sexual exploitation and abuse, they should be blocked from 
joining new missions. The U.N. must say NO on deployment until 
demonstrable progress is made. The Secretary-General has the power to 
do that--he must wield it, and the Security Council must back him.
    There are certain to be consequences. One year from now, for 
example, the Security Council may choose to intervene in a country 
facing a crisis. With lives on the line, the international community 
will look to the U.N. to quickly deploy peacekeepers. Only a few 
countries will offer troops, and of those, some will have checkered 
human rights records. While there will be justifiable demands to deploy 
a robust force, the U.N. must hold firm and reject any nation with a 
record of widespread or systemic abuse.
    At the same time, this does not mean that the international 
community should accept a weak response to conflict and mass 
atrocities. Rather, we must demand that more countries shoulder the 
load and do so in an ethical and principled way.
    As it stands, there is a severe shortage of well-trained troops for 
a growing number of increasingly complex, dangerous missions. The 
dramatic increase in the size and scope of peacekeeping missions 
approved by the U.N. Security Council, together with the near-
withdrawal from peacekeeping by European and American forces, has taxed 
the ability of the U.N. to recruit the best trained and equipped 
troops. If peacekeeping is to ultimately free itself from the stain of 
sexual abuse, the responsibility must not sit with U.N. alone; other 
member states need to answer the call.
    To its credit, the United States took some decisive steps to 
improve this dynamic in chairing a United Nations peacekeeping summit 
last fall. The Summit resulted in pledges of 40,000 more peacekeepers 
from a diverse pool of countries. Ensuring those pledges materialize 
and that troops deploy to places like CAR and Mali will be instrumental 
in backing up the U.N.'s denial of certain countries over their records 
on sexual exploitation and abuse.
    But more can and must be done on training, investigative support, 
and vetting. A few suggestions:


   The State Department's Global Peace Operations Initiative has 
        trained over 200,000 peacekeeping troops since 2005. The U.S. 
        should enhance the sexual abuse and command and control 
        components of GPOI across all of its peacekeeping training 
        centers.

   The U.S. and other countries should use both bilateral and 
        multilateral diplomacy to push troop contributing countries to 
        take disciplinary action against soldiers proven to engage in 
        sexual exploitation and abuse. DR Congo is currently trying 3 
        of 21 of its peacekeepers, with more trials over the next 
        several months. Sadly, that's the exception rather than the 
        rule in terms of justice.

   To investigate allegations of sexual exploitation and abuse, the 
        U.N. has established two different mechanisms in conjunction 
        with troop contributing countries. The U.N. must ensure that 
        these investigation teams are fully trained, better 
        coordinated, and have the ability to not only interview 
        victims, but refer them to medical and psycho-social help and 
        access to legal counsel so they can seek justice.

   The U.N. currently has a rudimentary database for vetting personnel 
        to make sure that those who have been kicked out of missions 
        cannot return. As a country with a wealth of expertise in 
        computing, the U.S. could help advance progress and improve the 
        technology, possibly by harnessing the talent of the private 
        sector.


    In conclusion, it is shameful that it took the high-profile sexual 
exploitation and abuse cases in CAR to grab the world's attention to 
this crisis and to pull open the curtain to the culture of impunity 
which exists in U.N. peacekeeping. The U.N. and members of the Security 
Council are now seized with developing and implementing solutions to 
this crisis. But we need to be invested over the long-haul--in getting 
more peacekeeping troops into the system so the U.N. doesn't deploy the 
wrong troops to a crisis; in ensuring that allegations are fully 
investigated and justice is served by the countries who contributed the 
troops; and in providing victims and their families with the help they 
so desperately need.
    We have to make it right because we have no other choice.
    I would be happy to answer any questions you may have.


    The Chairman. Thank you both for your testimony.
    Dr. Brown, if you could briefly share with us why you are 
at present not employed?
    Dr. Brown. I believe that the reason my contract was not 
renewed was out of retaliation, because I am a whistleblower.
    The Chairman. You said something that I think we may have 
missed an opportunity with the last panel to pursue as much as 
we should. You said that 70 percent of abuses actually take 
place by civilians that work directly for the United Nations. 
Is that correct?
    Dr. Brown. That is my understanding, and I think it would 
be useful to check with the U.N. on that statistic.
    And if so, I would suggest that all of the measures that 
are being applied to the troop-contributing countries should 
also apply to the 70 percent, to the U.N. staff, as well.
    The Chairman. Mr. Yeo, do you agree with the order of 
magnitude taking place at the civilian level with direct 
employees?
    Mr. Yeo. There are definitely cases where civilian 
employees are engaged in cases of sexual exploitation and 
abuse. The 70 percent figure strikes me as high, but I look 
forward to working with you to figure out how that number was 
determined.
    But I also agree with Dr. Brown's recommendation, which is, 
any tools used to investigate charges of sexual exploitation 
and abuse involving the military personnel and police-
contributing countries should also apply to civilian employees.
    The Chairman. We spend a lot of time talking about the 
sovereignty, if you will, and the countries dealing with their 
own, but the fact is we should have spent more time--we are 
doing it now--just on the civilian side itself.
    I am looking through a list, and I may not be catching 
every single one, but I think I could be. It appears to me that 
in every single case relative to civilians, that I have access 
to at present--here is one with suspension. But in almost every 
case, it is a pending issue.
    Can you share with me why that would be the case and not 
yet adjudicated?
    Dr. Brown. I cannot comment on this figure, but, obviously, 
my perspective is that there is a lack of accountability inside 
the U.N., just as there has been for the troop-contributing 
countries. And that does need to be addressed.
    The Chairman. Let me ask you this, I mean, you were out in 
the field. I know Mr. Yeo may have a different perspective. But 
what is it at the U.N. that would cause them with their own 
employees that work directly for the United Nations to tolerate 
this and to not be more forceful in ensuring that this is not 
happening?
    Mr. Yeo. I think that one thing to consider here is that 
the level attention that is now being paid to sexual 
exploitation and abuse, not only by police and military-
contributing countries but also by the civilian, is 
unprecedented, in part because of the horrendous situation that 
is coming out from CAR.
    So we, as a major 22 percent contributor to the regular 
budget of the U.N. and 28 percent to U.N. peacekeeping, need to 
insist that any employee of the U.N. be absolutely subject to 
the same forms of discipline and dismissal and justice as we 
are insisting upon policing and the troop-contributing 
countries.
    The Chairman. If I could, before Dr. Brown responds, why 
would that not just be the case? I mean, just naturally, why is 
it that the United States needs to apply pressure on the U.N. 
for the U.N. to want to prosecute people who work for them who 
are involved in sexual exploitation? I mean, I do not get it.
    Mr. Yeo. I think there are a couple of factors at work 
here, none of which justifies it. One factor is that so many of 
the appointments within the U.N. system are derivative of 
specific countries wanting to place particular employees, and 
so that creates this member-state politics within the U.N. 
system, the 193 member states, that sometimes makes it 
difficult for member states to want their employees to be 
punished.
    That is not an excuse, but I think that dynamic is 
sometimes at work, and in a very unhelpful and wrong way.
    The Chairman. And that is the same thing that occurs on the 
troop side, right? I mean, they have member states who do not 
want actions taken against their own military personnel.
    Mr. Yeo. For sure, in the case of our troop-contributing 
countries, it is a little bit more specific because they 
specifically will not contribute troops to U.N. peacekeeping 
missions if they do not have total control of the discipline of 
their troops. So if we insist that all discipline cases be 
adjudicated jointly, for instance, between the U.N. and the 
troop-contributing countries, then, in fact, many nations that 
are currently the backbone of peacekeeping may choose to 
withdraw.
    That may be a price that we have to pay. And then the 
Security Council will have to figure out in a more systematic 
way how we get more countries into U.N. peacekeeping that 
actually can make sure their peacekeepers carry out their work 
in an ethical and principled way. To do otherwise is 
unacceptable.
    The Chairman. Dr. Brown, your perspective? Why does this 
culture exist? And why would the U.N. be reticent to deal with 
it?
    Dr. Brown. I hate to say it, but it reminds me a little bit 
of the child sexual abuse in the Catholic Church. I think that 
there has only now been the realization of the problem at the 
senior levels in the U.N. There have been cover-ups.
    I hope that this sudden exposure will result in changes, 
but there needs to be some structural changes, particularly in 
terms of reporting, because, at the moment, you have multiple 
conflicts of interest at multiple levels. Just collecting the 
information is problematic.
    The Human Rights officers in the field often face pressures 
on them not to report. For example, in the case of U.N. staff, 
they are having to report on their colleagues. They may have to 
report on their supervisors. The structures are not in place to 
prevent them from receiving retaliation.
    Most of them are junior staff on short-term contracts. 
Their contracts could be suddenly not renewed. They can be 
transferred out of the location. There is no incentive for them 
to report, in a way, for them to report on their colleagues. 
There is no protection.
    And then following on from that, the internal structures, 
for example, the Office of Internal Oversight Services, lacks 
independence.
    There are so many problems in relation to accountability 
within the U.N. Now, I think these problems can be addressed. I 
really do. I think they can be addressed, but there needs to be 
recognition first, and that is what I am calling for. There 
must be recognition by the U.N. leadership that there are 
internal problems that have to be fixed, including in relation 
to, obviously, these abuses that are being committed by U.N. 
staff, but also protection for the staff who report the abuses, 
be it by U.N. staff or peacekeepers.
    The Chairman. My time is up, but are you telling me that 
with this report that came out in 2005, which apparently was 
somewhat earth-shattering at the time, are you telling me that 
the leadership at the United Nations has just become aware of 
this problem?
    Dr. Brown. No, they have not just become aware of this 
problem. But rather like the Catholic Church, it has taken them 
some time to actually act on it. I hope that they are going act 
on it, but they must do so.
    Mr. Yeo. I think the other challenge is for sure the 
highest levels of the U.N. have known about this even before 
2005, so an issue of whether U.N. officials knew about sexual 
exploitation and abuse and were taking action. As Ambassador 
mentioned earlier in her testimony, there is ongoing dialogue 
for over a decade between the United Nations and troop-
contributing countries about ongoing cases of sexual 
exploitation and abuse.
    But I think it has taken this case to break it open and get 
this high-level commitment.
    I think the other thing to consider here is the U.N. 
Security Council for over a decade, in both Republican and 
Democratic administrations, has been pushing for increased 
peacekeeping missions, increasingly complex, larger missions. 
And as a result, when the U.N. comes back and says there are 
not enough peacekeepers in the system, there is a real tension 
between do we approve larger, more complex missions when we do 
not really have enough well-trained soldiers with appropriate 
command-and-control to carry out those missions.
    So it is not simply a case of one individual in the U.N. 
running the whole operation. The Security Council has been 
well-aware of this situation for over a decade and yet 
continues to approve larger and more complex missions, despite 
the fact that there are not enough troops in the system. It is 
complex.
    The Chairman. Thank you both.
    Senator Cardin?
    Senator Cardin. Well, let me thank both you.
    Dr. Brown, I listened to your last comment and your 
prepared statement. I can assure you that we take the integrity 
of our hearings pretty seriously. So we very much appreciate 
you being here, and we will protect the integrity of our 
committee process, so thank you for your participation.
    I looked at the information provided to us by the United 
Nations, at least from their public Web site. They show one 
civilian episode in 2016, and then in 2015, I did some quick 
math, and they showed 14, which would be about 20 percent.
    Now, I do not necessarily believe these are accurate 
numbers, do not get me wrong. But when you reply to Chairman 
Corker that we should ask the United Nations, I am not sure we 
are going to get today the right numbers. I just do not know if 
that is available to us, but we will try.
    I just had a conversation with my staff, and I agree with 
Senator Corker. We are going to be asking the first panel some 
additional questions for the record dealing with the United 
Nations' accountability for, particularly, the civilian issues.
    But there are two parts to the United Nations' 
responsibility.
    One is how they, in fact, supervise the activities of the 
participating countries, what they do with the TCCs to watch 
their conduct. It is not just a matter of sending them home. It 
is a matter of making sure they do not do wrong when they are 
in theater. That is a supervision responsibility, which falls 
with the United Nations. And yes, we want to take action 
against countries that are not responding correctly, but there 
should be accountability within the United Nations itself.
    Secondly, there needs to be a certain responsibility of the 
United Nations to give clear direction to its civilian work 
force as to what is expected, to give them adequate training, 
but to have adequate supervision, again, so that the conduct is 
clearly understood, and zero tolerance is clearly understood, 
and, of course, if there are violations, that there is 
accountability, accountability not only in removing those 
individuals but holding them responsible for their actions. 
That may very well require the United Nations to have 
arrangements with the way it employs its personnel, to make 
sure that there is accountability for their activities.
    So I will be asking those types of questions of our first 
panel in an effort to try to see how we can complete the circle 
here, because I think you do raise a very valid point. It is 
fine to say the TCCs are not doing what they are supposed to be 
doing, and they should be removed, and I agree with that. There 
are also primary responsibilities with the United Nations, and 
those responsible at the United Nations for how these missions 
are deployed and supervised, et cetera, and how the civilian 
personnel are expected to behave, and making sure that, in 
fact, they do carry that out or are held accountable.
    So I guess my point is this, have either one of you seen 
actions taken to deal with what I just said? Is there clear 
direction given by the United Nations on civilian personnel? Is 
there clear supervision? Is there clear training? Are there 
clear ways of being able to get the information on those who 
are violating, so that they can be removed and held 
accountable? Is there a clear line of responsibility and 
accountability from the United Nations to the civilians that 
are in these countries in which we have the U.N. missions?
    Mr. Yeo. Two quick thoughts, which is, first of all, I 
think it is important to note that the Secretary General did 
remove the head of the U.N. mission in CAR when these 
allegations and charges first came to light, and I think that 
is exactly the type of accountability that was long overdue and 
necessary and will hopefully send a signal to future military 
and civilian commanders that when missions that are under their 
supervision--as you said, they are responsible for making sure 
that the troops of the various contingents are actually 
performing their duties in an ethical and principled way. If 
they fail to do that, then they need to do be dismissed from 
their job. In the case of Central African Republic, that did 
occur.
    Second of all, in terms of civilian employees, civilian 
employees that are deployed to all of these missions receive 
extensive training about sexual exploitation and abuse, human 
rights training. But as the previous panel indicated, training 
is not a substitute for appropriate supervision of work.
    So in the case of civilian employees, we need to ensure 
that the people that are at the highest levels within each 
individual mission are fully responsible for the actions of 
their employees and, at the earliest possible moment that the 
allegations are raised of sexual exploitation, that they are 
reported to the right authorities within the U.N. system and 
action investigations are taken, in fact, the new immediate 
response teams that the U.N. has established to make sure that 
within 5 to 10 days that the actual evidence of crimes related 
to sexual exploitation and abuse are preserved, are deployed in 
the case of both civilian and military employees. So I could 
not agree more.
    Senator Cardin. We know that, historically, within military 
command, there has always been a challenge, in particularly 
colleagues reporting misconduct. We know the historic problems, 
and we try to take action to deal with that.
    On the civilian side, Dr. Brown, is there the same type of 
inherent problems on reporting colleague's misconduct?
    Dr. Brown. I believe so, yes, and I think there are a 
number of other problems. For example, prosecution would 
require the lifting of immunity of the staff.
    Also, the way the system is currently constructed, it would 
require the U.N.'s Office of Internal Oversight Services to 
investigate, and we are talking there about U.N. staff 
investigating other U.N. staff. There are inherent conflicts of 
interests within the system that will need to be addressed.
    Senator Cardin. So with the immunity, in other words, they 
are immune from criminal prosecution in the host country?
    Dr. Brown. In theory.
    Mr. Yeo. But I would also like to make it clear that the 
Secretary General, in writing, has made it quite clear that no 
U.N. employee who is the subject to sexual exploitation and 
abuse, if they have diplomatic immunity, it will be waived. 
Most civilian employees who are deployed as part of 
peacekeeping missions actually do not have diplomatic immunity. 
But in either case, the Secretary General and the U.N.'s team 
have made it quite clear that the diplomatic immunity will 
not----
    Senator Cardin. Knowing that the countries in which the 
peace missions are situated, the capacity there to deal with 
these types of issues are limited.
    Dr. Brown. That is correct.
    Going back to the point of the investigation itself, we 
have an inherent problem because you have a U.N. investigative 
body investigating possibly quite a senior official in a 
country. You have an inherent conflict of interest there. You 
still have a conflict of interest with, in my view, with the 
U.N. Office of Internal Oversight Services investigating a TCC, 
a case of a TCC, or the discipline and conduct unit 
investigating it, or even the human rights officer 
investigating it.
    But when it comes to actually U.N. staff, that conflict of 
interest is exacerbated, and I think that will need to be 
addressed, along with, if I may, the problems inherent in the 
reporting lines themselves, because there are multiple barriers 
to this information moving up the chain.
    Senator Cardin. Well, the questions I think I would ask 
from the United Nations--we do not have the right people here--
is what capacity do they build in countries where there are 
U.N. peacekeeping missions to be able to have the capacity to 
prosecute those who violate the laws in those countries on 
sexual exploitation and abuse.
    That would be an interesting point, to see how the United 
Nations is helping a country to be able to hold accountable 
those who violate these laws.
    Mr. Yeo. Or these employees need to be repatriated to their 
home countries and subject to prosecution at home.
    Senator Cardin. Yes.
    Mr. Yeo. So there needs to be prosecution either in 
country, which is often a challenge, or back home.
    Senator Cardin. But for civilians, it may be even more 
complicated.
    Dr. Brown. Correct. I think so.
    The Chairman. Just back to the pressure, Mr. Yeo, you were 
talking about earlier where you have these expanding 
peacekeeping needs that are complex. You have pressure for more 
of that to occur. I look at the types of populations generally 
speaking that are being, quote, ``protected.'' I mean, is there 
some institutional disrespect for the types of people that 
these peacekeeping missions are being sent out to protect? Is 
there something there that we need to understand?
    Mr. Yeo. I think the disrespect that occurs is between 
individual soldiers and the disrespect as a result of the 
individual actions they are taking, the crimes they are 
committing, as a peacekeeper.
    But having visited many different U.N. peacekeeping 
missions around the world, I am on honestly shocked by the 
willingness of these peacekeepers to serve away from their home 
for sometimes months or years on end, protecting people they do 
not even know.
    And they are doing it at great personal risk. When you look 
at, for instance, the peacekeepers in Mali that are battling 
back terrorist elements in Mali, there has been dozens of 
peacekeepers killed there. Three French peacekeepers were just 
killed yesterday in Mali.
    So it is a complex situation. I think most peacekeepers are 
absolutely committed to civilian protection.
    We had a wonderful American who was deployed to South Sudan 
as part of a peacekeeping mission. And the military showed up 
at the gates. They demanded that he turn over all the young men 
in the camp, and he absolutely refused. He stood in the gates, 
and he said, ``You may not come in.'' And as a result, the 
people that day were saved. Of course, he, from my perspective, 
is a hero for saying that.
    I recently was in South Sudan. There are 200,000 people 
today living in these camps that largely owe their lives to the 
fact that we have peacekeepers from around the world guarding 
these camps, trying to do their best to protect the people 
inside who would otherwise be killed by other elements within 
the country.
    So it is very complex. I do not think there is a culture 
where they do not want to protect the people they are supposed 
to protect. I think this is a case of individual soldiers doing 
wrong, and they need to be punished for it.
    The Chairman. Let me ask you this, based on what you just 
said, are we do you think today in this hearing getting an 
unbalanced view of this issue?
    Mr. Yeo. No, I do not think so at all. I think that what 
has happened in CAR, what has happened in Mali, and what has 
happened in terms of the sexual exploitation and abuse in these 
other countries, is absolutely horrific, and it gives the 
entire concept of U.N. peacekeeping a bad name.
    This hearing is absolutely well-timed. It needed to occur. 
And most importantly, it needs to occur a year from now and 2 
years from now. This is not going to be fixed overnight.
    And we need to make sure that there is bilateral and 
multilateral pressure for years to come, so that 10 years from 
now, we are not looking back at this era and saying we worked 
on this 10 years ago. Ten years from now, U.N. peacekeeping 
needs to be the model for this.
    I know this is something that Jane Holl Lute, who has been 
appointed by the Secretary General, and, as you know, is a 
former Deputy Secretary of the Department of Homeland Security, 
is looking at. What are the best practices for training and 
command-and-control? How can we borrow from militaries around 
the world, including the United States, to make sure that we 
can work with the countries that are the backbone of 
peacekeeping to improve their performance?
    It is a long haul, and it is going to require a lot of 
bilateral and multilateral pressure.
    And, no, this hearing is not unfair.
    The Chairman. Let me just ask my question, again, because 
the disrespect that I was talking about is you have the 
hierarchy at the United Nations that has these complex 
missions, as you mentioned, and needs more in the way of 
peacekeepers, and yet are sending out countries that are known 
to have problems, I am sorry, where, as Senator Isakson 
mentioned, in many places, rape is certainly an act of war. It 
is part of war.
    I was just in the Balkans. It is unbelievable to know what 
and see and understand and meet women who were dealt with there 
in that way. It was an act of war. It was a part of war.
    So back to the disrespect I am referring to, I am talking 
about not the soldiers. I am talking about, at the U.N. level, 
is there a sense that there is just so much in the way of need 
that, in these populations, so what? Is there something there 
that I am missing?
    Mr. Yeo. I think there was acceptance of what was viewed at 
the time as a low-grade, ongoing problem, and that acceptance 
extended for years on end not just by the highest levels within 
the U.N., but by the U.N. member states, including members of 
the Security Council.
    I do not think that acceptance is there any longer. If you 
look at what is new, as a result of what has happened, we 
actually see, for the first time ever, military units being 
repatriated. And you have, for the first time ever, a policy 
endorsed by the Security Council saying no more units may be 
deployed if they have a track record of systematic abuse, or 
they refuse to get back to the U.N. as to what they have done 
in terms of discipline, or they refuse to investigate.
    This is the first time they have done this. This is new. 
And we need to ensure that it is enforced, so that units from 
DR Congo are not deployed in future peacekeeping missions 
unless they fundamentally change the way they do business.
    It has to change. And the U.N. is now committed to that. It 
has been endorsed by the Security Council. And I think 
acceptance of these practices, I think, is over.
    The Chairman. Dr. Brown?
    Dr. Brown. If I may, I agree entirely with what Mr. Yeo has 
said. I would just add that the U.N. has failed, from what I 
can see, to accept that it itself has a problem, and that is 
what needs to happen. There needs to be a recognition that it 
needs to reform itself. It needs to recognize that it does not 
have the accountability structures internally, and most of the 
measures that apply to the TCCs must apply to the U.N.
    Furthermore, the staff who take great risks in reporting 
the sexual abuse must be protected. We have had this terrible 
case with Mr. Kompass, which has just sent a chilling message 
through the system. And that must be rectified. Otherwise, we 
are going to find that staff will simply not report.
    The Chairman. Senator Cardin?
    Senator Cardin. Well, I want to thank both of our 
witnesses. This has been very helpful to us.
    But, it really starts with the recognition that sexual 
exploitation and abuse is not acceptable, and that message has 
to be communicated by the top leaders. So it starts with the 
top leadership of the United Nations.
    And it has to be not just understood by everyone in the 
leadership of the United Nations. It has to be enforced by 
everyone in the hierarchy of United Nations, so that they 
understand that it is different than it has been in the past.
    It does not mean that people in the past did not look at it 
as serious, but the institution did not look at it as serious. 
And that has to change.
    But it requires a cultural change, and without that, you 
are not going to get the type of action that we want to see. 
And the action we want to see is that the member countries that 
are participating in the United Nations understand that that 
cannot be tolerated, so their leadership impresses upon their 
participants that this will not be allowed, and that if you are 
involved, it is going to be very severe, and that you are 
bringing disrespect to our country's participation and 
jeopardizing our standing, and we are not going to allow that 
to happen, and it is not allowed.
    That is what you are going to have to have for there to be 
the type of change that we want to see occur.
    So, yes, we have seen some encouraging signs. You have 
mentioned some of the encouraging signs, including the passage 
of the Security Council resolution. But we are far from 
declaring that that has been accomplished in the culture of the 
United Nations. That is something that is still a matter that 
many of us are concerned, whether that message is clearly being 
broadcast the way it should.
    And that is something that we are going to continue to 
follow. In the meantime, I expect we are going to take some 
additional action in the Congress.
    The Chairman. We want to thank you both. It has been a very 
powerful hearing, and I hope that your testimony is going to 
end up affecting people, in that, hopefully, thousands of 
people who otherwise would have been sexually abused, raped, 
whatever, will not have that experience because of people like 
you who have been willing to testify in this manner.
    I want to build on what you just said. I mean, in essence, 
because the United Nations is providing peacekeepers that in 
some cases, not in every case, are sexually abusing people, our 
citizens here who work hard every day to raise their families 
and pay taxes, they are basically sending money, sending their 
hard-earned money, to an organization that has been unwilling 
to deal with a crisis within it, and that taints America. It 
taints the taxpayer money that we are sending.
    And I hope that, somehow, very soon, the leadership of the 
United Nations will understand that the American people through 
their elected representatives are not going to stand for us 
sending money to an organization that is unwilling to deal with 
this moral depravity that is taking place there, but not being 
willing to own up to a problem and deal with it in an 
appropriate way.
    So again, we thank you. We appreciate very much your time 
and your travel. The record will remain open through the close 
of business Friday. And if you could respond fairly promptly to 
questions, my sense is you will want to do that.
    We thank you, again.
    And with that, the meeting is adjourned.

    [Whereupon, at 4:31 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

Responses to Questions for the Record Submitted to Ambassador Coleman, 
  Principal Deputy Assistant Secretary Jocobson, and Deputy Assistant 
        Secretary Rothstein by Senator Corker and Senator Boxer

    Question 1. In May 2015, Rwanda hosted a conference on the 
protection of civilians in peacekeeping operations. A set of principles 
on protection of civilians was created including Principle 15 which 
addresses the issue of peacekeeper abuse. What measures have troop- and 
police-contributing countries taken to integrate the Kigali principles 
into their operations? What are the consequences for TCCs and PCCs who 
fail to comply with the principles?

    Answer. The ``Kigali Principles on the Protection of Civilians'' 
are a set of best practices that were developed by Rwanda, in 
consultation with the United Nations (U.N.) and peacekeeping experts, 
and released at the conclusion of the High-Level International 
Conference on the Protection of Civilians held in Rwanda on May 28 and 
29, 2015. The Principles are framed around the active role U.N. 
peacekeepers should take to protect civilians, a core mandate for a 
majority of U.N. peace operations. For countries providing uniformed 
personnel to peacekeeping missions, there already is an expectation 
that they are trained to support protection of civilians. The 
implementation of the Kigali Principles, however, could address other 
areas of concern that can and often do undermine peacekeeping 
operations deployed to volatile situations. For example, the Principles 
were designed to address a range of issues, including having national 
contingents seek to identify early-warning signs of violence and take 
steps to mitigate them; ensuring that troops have the requisite 
authority to use force consistent with the mandate; and, as principle 
15 addresses, getting countries to vigorously investigate and, where 
appropriate, prosecute any incidents of abuse.
    Countries have been asked to endorse the Principles by submitting a 
diplomatic note to Rwanda expressing support for the Kigali Principles 
and the country's resolve to uphold the pledges contained therein. 
Endorsement demonstrates a political commitment to implement them, 
where applicable. Endorsement of the Kigali Principles, which is 
voluntary and non-binding, could become an important part of improving 
the implementation of protection of civilian mandates and emphasizing 
its importance in mission design, training and other means to support 
contingents in peacekeeping missions.
    To date, eleven countries have endorsed the Principles: Bangladesh, 
Burkina Faso, Ethiopia, Italy, Malawi, the Netherlands, Rwanda, 
Senegal, Sri Lanka, Uganda, and Uruguay. These countries cumulatively 
have more than 40,000 uniformed personnel in U.N. and AU operations--
approximately one in three uniformed personnel across these operations. 
On May 11, the Netherlands will hold a Ministerial event in New York to 
encourage additional Member State endorsements and to recognize those 
countries that have already done so.
    The United States is actively encouraging troop- and police-
contributing countries to endorse the Principles and to develop action 
plans to implement them. During his address at the September 2015 
Leaders' Summit on Peacekeeping, President Obama highlighted the 
importance of the protection of civilians by U.N. peacekeepers and 
noted ``that's why the principles and best practices for civilian 
protection laid out in Kigali are so important.''


    Question 2. U.N. Security Resolution 2272 empowers the Secretary-
General to replace all military units and/or formed police units of the 
troop- or police-contributing country when that TCC and/or PCC has not 
taken appropriate action against its personnel subject of an allegation 
or allegations of sexual exploitation and abuse. What oversight 
measures will the United States take at the Security Council take to 
ensure that the Secretary General is complying with the UNSCR 2272?

    Answer. The United States is tracking closely the steps the 
Secretary-General is taking with respect to U.N. Security Council 
resolution 2272. There will be ongoing opportunities for the United 
States and other Council members to review progress, in addition to 
frequent informal contacts with concerned U.N. offices. The Secretary-
General reports regularly (quarterly in the case of most missions), and 
specifically in advance of mandate renewals, to the Security Council on 
the progress individual U.N. peacekeeping operations are making in 
carrying out their mandates. At U.S. urging, mandate resolutions now 
routinely include a specific request that these reports include 
information on the mission's progress in ensuring full compliance with 
the Secretary-General's policy of zero tolerance for sexual 
exploitation and abuse (SEA). The Secretary-General's reports are 
briefed to the Security Council, which has ample opportunity to ask 
questions of the U.N. Secretariat and the Special Representative of the 
Secretary-General heading the U.N. mission under discussion, including 
about SEA, and to take appropriate steps.
    In addition, the General Assembly's Fifth Committee (Administrative 
and Budgetary) oversees conduct and discipline of U.N. peacekeeping 
mission members as a crosscutting, organization-wide issue, as well as 
approves individual mission budgets. The United States, as the single 
largest financial contributor to U.N. peace operations, continues to be 
a key player on issues related to conduct and discipline and 
performance in general.
    Since the adoption of U.N. Security Council resolution 2272, the 
United States has and will continue to request detailed updates on all 
outstanding sexual exploitation and abuse allegations in individual 
missions, including actions taken by relevant troop- or police-
contributing countries, and will hold the Secretary-General accountable 
for enforcing resolution 2272 if a contributing country has not 
fulfilled the resolution's conditions. During Security Council 
briefings, the United States will also continue to press the Special 
Representative of the Secretary-General for information on any 
overarching measures he or she has taken to prevent sexual exploitation 
and abuse in the relevant mission.


    Question 3. Has the United States withheld bilateral assistance for 
sexual exploitation and abuse violations in U.N. peacekeeping as a 
result of Leahy vetting?

    Answer. The United States will not provide security assistance, 
including training, to foreign security force units or individuals for 
whom we have credible information of having committed gross violations 
of human rights, including those involving sexual exploitation and 
abuse (SEA). Individuals or units, against which credible evidence of 
such violations exists, have been excluded from participation in U.S.-
funded training activities in numerous cases. However, the United 
States has not systematically withheld bilateral assistance as the 
result of SEA in U.N. peacekeeping due to the lack of available 
information necessary to sufficiently substantiate such allegations.
    Prior to the release of the U.N. Secretary General's February 16, 
2016 report on sexual exploitation and abuse in the U.N. system 
(``Special Measures for Protection from Sexual Exploitation and Sexual 
Abuse--Report of the Secretary-General,'' released on March 4, 2016), 
the U.N. declined to release the names or home countries of individuals 
accused of SEA. The February report represents a significant step in 
the right direction, naming the specific troop contributing countries 
against which there are SEA allegations.
    But the United States must continue to rely on engagement with the 
host government and media reports to identify specific individuals 
involved in these situations. The State Department will continue to 
engage actively with the U.N. and TCCs to identify the names and units 
allegedly involved in SEA. This will be done to ensure the host 
government investigates and appropriately follows through on these 
allegations as well to prevent the provision of future assistance to 
individuals and units for which we have credible information of having 
committed gross violations of human rights, including those involving 
SEA.


    Question 4. Is the unit that was part of the Democratic Republic of 
Congo contingent in the Central African Republic included in the 
International Vetting and Security Tracking System (INVEST)?

    Answer. The International Vetting and Tracking (INVEST) system is 
the workflow management tool and official system of record for 
conducting Leahy vetting. Only cases subject to Leahy vetting are 
entered into INVEST. Because no U.S. Government funds were used to 
train Democratic Republic of Congo (DRC) security forces for the 
deployment to the Central African Republic (CAR), those forces were not 
subject to Leahy vetting.


    Question 5. Given that military and some police are held 
accountable for allegations of sexual exploitation and abuse in U.N. 
peacekeeping missions by their national governments, what is the 
process by which U.N. civilian peacekeeping personnel held accountable 
for sexual exploitation and abuse?

    Answer. When a U.N. civilian staff member in a peacekeeping 
operation is accused of any type of misconduct (including sexual 
exploitation and abuse), the investigation is either undertaken by the 
Office of Internal Oversight Services (OIOS) or the mission itself, 
depending on the details of the allegation. If an allegation of 
misconduct against a U.N. civilian staff member is substantiated, there 
is an array of administrative sanctions that the U.N. can impose 
appropriate to the misconduct, ranging from withholding benefits to 
dismissal.
    The Secretary General is required by General Assembly resolution 
62/63 to bring credible allegations that reveal that a crime may have 
been committed by United Nations officials and experts on mission to 
the attention of the accused person's State of nationality. While 
civilian personnel enjoy functional immunity from legal processes in a 
host country for actions performed as part of their official duties, 
immunity should not apply in SEA cases because such behavior is outside 
official capacity.
    Regardless, the Secretary General can also waive immunity for 
international staff in order to allow prosecution by local authorities 
in the host country. In cases where the U.N. refers a substantiated 
allegation of misconduct to the country of nationality, the U.N. 
follows up on the case regularly and can provide appropriate assistance 
requested by the country for investigation and/or prosecution.


                               __________

     Responses to Questions for the Record Submitted to Peter Yeo, 
President, Better World Campaign, and Vice President for Public Policy 
       and Advocacy, United Nations Foundation, by Senator Corker


    Question 1. In May 2015, Rwanda hosted a conference on the 
protection of civilians in peacekeeping operations. A set of principles 
on protection of civilians was created including Principle 15 which 
addresses the issue of peacekeeper abuse. What measures have troop- and 
police-contributing countries taken to integrate the Kigali principles 
into their operations? What are the consequences for TCCs and PCCs who 
fail to comply with the principles?

    Answer. The Kigali Principles are a voluntary set of principles on 
the protection of civilians in peacekeeping initially agreed upon by 
the governments of Rwanda, Italy, Netherlands, Uruguay and Uganda 
following the High Level International Conference on Protection of 
Civilians in May 2015. Since then, Ethiopia, Senegal, Malawi, Burkina 
Faso, Bangladesh, Sri Lanka, and Poland have also endorsed.
    With respect to the United Nations factoring in the Principles, all 
else being equal, the Secretariat is giving priority to deploying 
countries that have agreed to the Principles versus those that have 
not. That being said, the Kigali principles are voluntary commitments, 
and, in the U.N.'s pre-deployment assessment of troop contributing 
countries (TCCs), they do not hold Kigali signatories to a higher 
standard than other troop contributors. Thus, all peacekeepers are 
expected to implement the protection mandate, whether or not they have 
committed to the Principles, and the Secretary-General has made it 
clear that refusals to obey orders may result in repatriation of 
contributed units. The Principles are important, however, because they 
clearly lay out an approach to civilian protection to which TCCs 
explicitly and publicly agree: a willingness to use force and a 
commitment to train and prepare troops and invest them with the 
authority to act.


    Question 2. Given that military and some police are held 
accountable for allegations of sexual exploitation and abuse in U.N. 
peacekeeping missions by their national governments, what is the 
process by which U.N. civilian peacekeeping personnel held accountable 
for sexual exploitation and abuse?

    Answer. For civilians, when an allegation of Sexual Exploitation 
and Abuse is reported, the Office of Internal Oversight Services 
(OIOS)--the internal oversight body of the U.N.--makes a determination 
whether it will investigate or whether it will refer the case to the 
mission for investigation. For most serious cases, OIOS will generally 
take the lead, or if it grants the lead to the mission, it may request 
to review the outcome of the investigation to determine if it wishes to 
take any further investigative action. If an allegation is 
substantiated, depending on the severity, the individual could receive 
anything from written censure to payment suspension to demotion to 
dismissal.
    In 2015, 30 allegations of sexual exploitation and abuse were made 
against United Nations staff members and related personnel other than 
those deployed in peacekeeping operations and special political 
missions. Of the 30, 12 of the cases were unsubstantiated or closed, 3 
have been substantiated and in the 15 others cases, the investigation 
is continuing (as of the February 2016 Secretary-General report). Of 
the three substantiated cases, the perpetrators' contract was 
terminated for two of the individuals and one case is under review by 
management for disciplinary action. Information on investigations and 
disciplinary action is regularly updated on the U.N.'s Conduct and 
Discipline Unit (CDU) website.
    In terms of immunity, U.N. officials have immunity only while 
carrying out their professional functions. In the case of Sexual 
Exploitation and Abuse, immunity does not apply. Member States have the 
authority to subject their nationals to criminal process. In several 
past instances, governments have requested waivers of immunity, and the 
U.N. has confirmed that no immunity applies.
    United Nations officials and experts on mission also may be 
referred for criminal accountability when allegations of sexual abuse 
have been substantiated or a Host Country may decide to investigate 
such crimes. Prosecutions by the Host Country will likely involve the 
conduct of prior national investigations. Field missions may be called 
upon to cooperate with the Host Country in carrying out all necessary 
investigations, in accordance with the provisions of status of force 
agreements or status of mission agreements.


                               __________


                                  <all>
</pre></body></html>
